<html>
<title> - IMMIGRATION AND THE ALIEN GANG EPIDEMIC: PROBLEMS AND SOLUTIONS</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



    IMMIGRATION AND THE ALIEN GANG EPIDEMIC: PROBLEMS AND SOLUTIONS

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                      BORDER SECURITY, AND CLAIMS

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 13, 2005

                               __________

                            Serial No. 109-8

                               __________

         Printed for the use of the Committee on the Judiciary


    Available via the World Wide Web: http://www.house.gov/judiciary


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
20-528                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
DANIEL E. LUNGREN, California        ZOE LOFGREN, California
WILLIAM L. JENKINS, Tennessee        SHEILA JACKSON LEE, Texas
CHRIS CANNON, Utah                   MAXINE WATERS, California
SPENCER BACHUS, Alabama              MARTIN T. MEEHAN, Massachusetts
BOB INGLIS, South Carolina           WILLIAM D. DELAHUNT, Massachusetts
JOHN N. HOSTETTLER, Indiana          ROBERT WEXLER, Florida
MARK GREEN, Wisconsin                ANTHONY D. WEINER, New York
RIC KELLER, Florida                  ADAM B. SCHIFF, California
DARRELL ISSA, California             LINDA T. SANCHEZ, California
JEFF FLAKE, Arizona                  ADAM SMITH, Washington
MIKE PENCE, Indiana                  CHRIS VAN HOLLEN, Maryland
J. RANDY FORBES, Virginia
STEVE KING, Iowa
TOM FEENEY, Florida
TRENT FRANKS, Arizona
LOUIE GOHMERT, Texas

             Philip G. Kiko, Chief of Staff-General Counsel
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

        Subcommittee on Immigration, Border Security, and Claims

                 JOHN N. HOSTETTLER, Indiana, Chairman

STEVE KING, Iowa                     SHEILA JACKSON LEE, Texas
LOUIE GOHMERT, Texas                 HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   ZOE LOFGREN, California
ELTON GALLEGLY, California           LINDA T. SANCHEZ, California
BOB GOODLATTE, Virginia              MAXINE WATERS, California
DANIEL E. LUNGREN, California        MARTIN T. MEEHAN, Massachusetts
JEFF FLAKE, Arizona
BOB INGLIS, South Carolina
DARRELL ISSA, California

                     George Fishman, Chief Counsel

                          Art Arthur, Counsel

                 Luke Bellocchi, Full Committee Counsel

                  Cindy Blackston, Professional Staff

                   Nolan Rappaport, Minority Counsel


                            C O N T E N T S

                              ----------                              

                             APRIL 13, 2005

                           OPENING STATEMENT

                                                                   Page
The Honorable John N. Hostettler, a Representative in Congress 
  from the State of Indiana, and Chairman, Subcommittee on 
  Immigration, Border Security, and Claims.......................     1
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas, and Ranking Member, Subcommittee on 
  Immigration, Border Security, and Claims.......................    30
The Honorable Steve King, a Representative in Congress from the 
  State of Iowa..................................................    33
The Honorable Maxine Waters, a Representative in Congress from 
  the State of California........................................    39
The Honorable Daniel E. Lungren, a Representative in Congress 
  from the State of California...................................    41

                               WITNESSES

The Honorable Michael J. Garcia, Assistant Secretary for 
  Immigration and Customs Enforcement, U.S. Department of 
  Homeland Security
  Oral Testimony.................................................     3
  Prepared Statement.............................................     5
Ms. Marsha L. Garst, Commonwealth's Attorney for Rockingham 
  County, Virginia
  Oral Testimony.................................................     7
  Prepared Statement.............................................    10
Ms. Heather Mac Donald, Senior Fellow, The Manhattan Institute
  Oral Testimony.................................................    12
  Prepared Statement.............................................    14
Ms. Mai Fernandez, Chief Operating Officer, Latin American Youth 
  Center
  Oral Testimony.................................................    26
  Prepared Statement.............................................    27

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas.............    45
Letter from the Latin American Youth Center submitted by the 
  Honorable Sheila Jackson Lee...................................    46
Letter from the City of Houston submitted by the Honorable Sheila 
  Jackson Lee....................................................    48

 
    IMMIGRATION AND THE ALIEN GANG EPIDEMIC: PROBLEMS AND SOLUTIONS

                              ----------                              


                       WEDNESDAY, APRIL 13, 2005

                  House of Representatives,
                       Subcommittee on Immigration,
                       Border Security, and Claims,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 4:22 p.m., in 
Room 2141, Rayburn House Office Building, Hon. John N. 
Hostettler (Chair of the Subcommittee) presiding.
    Mr. Hostettler. The Subcommittee will come to order.
    Today's Subcommittee on Immigration, Border Security, and 
Claims hearing will examine the alien gang epidemic that is 
facing the United States. At this hearing we will examine the 
role of aliens in gang crimes, investigate the immigration 
factors that have shaped the gang epidemic facing this country, 
and assess the use of the immigration laws in controlling alien 
gang crime.
    While there are an estimated 750,000 to 850,000 gang 
members in the United States today, there are no firm estimates 
on how many of those gang members are aliens and how many are 
citizens. What is apparent, however, is that gang crime is a 
growing problem. Over 631 gang-related homicides occurred in 
2001, and by 2003, the number of gang killings had jumped to 
819. In addition to homicide, gang members have been directly 
linked to the narcotics trade, human trafficking, document 
fraud, and violent assaults.
    It is also apparent that aliens are members of many of the 
most violent gangs in America. Reports have indicated that 60 
percent of California's 18th Street Gang are illegal aliens. 
This gang is reportedly ``involved in many types of criminal 
activities, including auto theft, carjacking, drive-by 
shootings, drug sales, arms trafficking, extortion, rape, 
murder for hire, and murder.''
    Similarly, Immigration and Customs Enforcement, or ICE, has 
reported that, ``The majority of MS-13 members are foreign 
nationals in this country illegally.'' Newsweek has termed MS-
13, which has an estimated 20,000 members in the United States, 
``the most dangerous gang in America.'' It has even been 
alleged to be negotiating with al Qaeda to smuggle terrorists 
into our country.
    It is also apparent that aliens are key members of these 
dangerous gangs. Lester Rivera Paz, the reputed leader of MS-
13's Honduran branch, was arrested in Texas in February after 
escaping from his native country where he's wanted in 
connection with a bus ambush. In the past 4 years, Paz has 
reportedly been deported four times by Federal authorities.
    In addition, it is apparent that even younger members of 
our immigrant communities have become involved in gang 
violence. For example, the April 6, 2005, Washington Post 
reported on a ninth grader who was stabbed and beaten with 
baseball bats outside Manassas Mall. A Prince William County 
Police Department spokesman stated the victim has been 
associated with the South Side Locos gang, and that the 
suspects are believed to be members of the rival gang ``Sureno-
13.''
    In response to the threat posed by alien gang members in 
the United States, in March ICE launched `Operation Community 
Shield,' an anti-gang initiative that is targeting members of 
MS-13 in six cities nationwide. To date, ICE agents, working 
with their Federal, State, and local counterparts, have 
arrested more than 150 MS-13 gang members nationwide for 
immigration violations.
    Some critics have complained, however, that flaws in our 
current immigration system hinder efforts to use the current 
immigration laws to curtail the alien gang epidemic. For 
example, some have pointed to so-called `sanctuary' laws that 
prohibit State and local law enforcement officers from 
contacting immigration authorities about illegal aliens, even 
if they are previously deported criminals. Such laws require 
the police to wait until those illegal aliens prey on the 
public before they can act.
    Some have asserted that temporary protected status, or TPS, 
has also protected alien gang members who would have otherwise 
been deportable. In January, the Government announced an 18-
month extension of TPS for El Salvador, the home country of 
many MS-13 members currently in the United States. The 
Subcommittee has been told that two of the three alleged MS-13 
members charged in the 2002 rape of two deaf girls in 
Massachusetts had applied for TPS prior to that attack, and 
that one was actually granted that relief.
    Finally, the lack of a ground of removal for gang 
membership has been cited as a hurdle to using the immigration 
laws to remove alien gang members from the United States. The 
Subcommittee will assess whether additional resources or 
authorities are necessary to make our immigration laws an 
effective tool for the Government in responding to the gang 
problem facing our country.
    At this time the Chair will now recognize Members for an 
opening statement, if they have any.
    Mr. Hostettler. There being no opening statements, we will 
now turn to an introduction of our witnesses before us.
    Michael Garcia has served as the Assistant Secretary for 
U.S. Immigration and Customs Enforcement since November 25, 
2003. Just prior to his appointment, Mr. Garcia was Acting 
Commissioner of the former Immigration and Naturalization 
Service. He has also served as an Assistant U.S. Attorney in 
New York City working on high-profile terrorism cases. Mr. 
Garcia is a graduate of the State University of New York at 
Binghamton. He received his law degree from the Albany Law 
School, where he was valedictorian.
    Now I would to introduce Marsha Garst, but I yield to the 
gentleman from Virginia to introduce his constituent, 
Commonwealth's Attorney Marsha Garst.
    Mr. Goodlatte. Mr. Chairman, thank you very much for 
holding this hearing on this very important issue and for 
allowing me this privilege.
    Marsha Garst is the Commonwealth's Attorney for the County 
of Rockingham and the City of Harrisonburg, Virginia, and in 
this position she has prosecuted hundreds of civil and criminal 
cases with an emphasis on capital murder and narcotics. She has 
previously worked in the private sector with a law firm in that 
area, and she has been named the Business and Professional 
Women's State Young Careerist of the Year in 2000 and 
Professional Woman of the Year in 2002. She is a graduate of 
the University of Virginia and George Mason University School 
of Law, and I am very pleased to welcome a very capable and 
able Commonwealth Attorney, who is very knowledgeable on this 
subject.
    Mr. Hostettler. I thank the gentleman. We welcome Ms. 
Garst.
    Heather Mac Donald is a John M. Olin Fellow at the 
Manhattan Institute and a contributing editor to City Journal. 
Her work at City Journal covers a range of topics including 
homeland security, immigration, and policing. After clerking 
for Judge Stephen Reinhart of the Ninth Circuit Court of 
Appeals, Ms. Mac Donald served as an attorney-advisor in the 
General Counsel's Office of the U.S. Environmental Protection 
Agency. She is a frequent guest on Fox News, CNN, and other 
television and radio programs. Ms. Mac Donald, a graduate of 
Yale University, earned her master's degree in English from 
Cambridge University and her law degree from Stanford Law 
School.
    Mai Fernandez is the Chief Operating Officer of the Latin 
American Youth Center in Washington, D.C. She has also served 
as a Special Assistant to the Assistant Attorney General in the 
Office of Justice Programs. Before working for the Department 
of Justice, she served as an Assistant District Attorney in 
Manhattan, and as an aide to Congressmen Mickey Leland and Jim 
Florio. Ms. Fernandez is a graduate of Dickinson College. She 
received her law degree from American University and her 
Master's Degree in Public Administration from Harvard 
University.
    Ladies and gentlemen, we appreciate your attendance here 
today. Secretary Garcia, you will begin, and you will see that 
there will be a 5-minute time period for your testimony. If you 
could stay as close within that as possible, we would 
appreciate it. Secretary Garcia.

    TESTIMONY OF THE HONORABLE MICHAEL J. GARCIA, ASSISTANT 
    SECRETARY FOR IMMIGRATION AND CUSTOMS ENFORCEMENT, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Garcia. Thank you very much, Mr. Chairman and Members 
of the Subcommittee. Thank you for the opportunity to speak 
with you today about U.S. Immigration and Customs Enforcement's 
response to alien gang activity in the United States. Mr. 
Chairman, you have very vividly outlined the threat posed by 
these gangs to our communities. I can assure you that ICE 
brings to bear all of its law enforcement and investigative 
powers to combat violent street gangs.
    Ensuring public safety is among the most important homeland 
security missions at ICE. Gang enforcement is a crucial part of 
that mission. In the last decade, the United States has 
experienced a dramatic increase in the number and size of 
transnational street gangs such as Mara Salvatrucha, commonly 
known as MS-13. These gangs have a significant, often a 
majority, foreign-born membership and are frequently involved 
in human and contraband smuggling, immigration violations, and 
other crimes with a nexus to the border. Like any street gang, 
these gangs also have a propensity toward violence. Their 
members commit such crimes as robbery, extortion, assault, 
rape, and murder.
    In 2003, ICE conducted a comprehensive threat assessment on 
violent street gang activity in the United States. The threat 
assessment identified MS-13 as having a presence across the 
nation, a significant foreign-born membership, and a history of 
violence.
    An example of this violence occurred just outside our 
nation's Capital. In May 2004, in Alexandria, Virginia, members 
of MS-13 viciously hacked at a rival gang member with machetes, 
severing the victim's hands. The victims of gang crime are not 
limited to rival gang members, however. Entire neighborhoods 
and sometimes whole communities are held hostage by and 
subjected to the violence of street gangs. Community members 
are targeted by gangs for extortion, robberies, carjackings, 
and home invasions. In drive-by shootings, the bullets fired by 
street gangs do not discriminate between a rival gang member 
and a child.
    Based on this threat assessment, ICE initiated Operation 
Community Shield in February 2005, with priority given to 
targeting MS-13 members. The objective of Community Shield is 
to gather intelligence, develop sources of information, and to 
ultimately disrupt, dismantle, and prosecute violent street 
gangs by applying the full range of authorities and 
investigative tools available at ICE. In Community Shield, we 
have designated priorities for apprehension based on whether a 
gang member is a threat to national security, in a position of 
leadership, or has a prior violent criminal history.
    Since the beginning of Operation Community Shield, more 
than 150 MS-13 gang members have been arrested for immigration 
violations. Nine of those arrested have been identified as 
leaders. More than half of those arrested have violent criminal 
histories with arrests and convictions for crimes such as 
robbery, assault, rape, and murder. In one set of arrests, 
Miami ICE agents apprehended two MS-13 gang members wanted by 
California authorities on murder charges. These two gang 
members were also being sought by local authorities for their 
suspected involvement in home invasions. Twenty-two of those 
arrested have been criminally charged for illegal reentry after 
deportation and are subject to sentences of up to 20 years in 
prison, depending on their criminal history. Examples of 
illegal reentry arrests include an MS-13 member from Long 
Island who had convictions for burglary, auto theft, 
harassment, and sexual abuse of a minor. Additionally, ICE 
agents in Los Angeles arrested four MS-13 gang members that 
illegally reentered the U.S., all with convictions for violent 
crimes ranging from brandishing a firearm to witness tampering. 
Finally, Newark agents apprehended an MS-13 gang member for 
illegal reentry who had prior convictions for armed robbery and 
grand theft.
    ICE's efforts under Operation Community Shield are not 
limited to immigration violations, and, again, we bring all our 
authorities, including our financial and criminal investigative 
authorities, to bear.
    Through Operation Community Shield, ICE is taking 
innovative steps to identify MS-13 gang members. The Law 
Enforcement Support Center checks MS-13 gang member data 
provided by State and local authorities against DHS and other 
databases to locate gang members. In a cooperative effort, ICE 
and the Bureau of Prisons identified 102 records of MS-13 gang 
members in the Federal prison system database.
    The LESC has also developed an innovative way to help 
identify MS-13 gang members to first responders. When a State 
or local police agency makes an inquiry to the LESC through the 
National Law Enforcement Telecommunications System, the LESC 
sends certain inquiry responses to ICE headquarters for further 
analysis. When a match is found, ICE notifies the inquiring law 
enforcement agency of its findings. You can see what a safety 
benefit that would have to any officer approaching a car on the 
side of the road at night who would certainly want to know the 
person in that vehicle is a suspected gang member.
    On December 23, 2004, the Columbus, Ohio, Police Department 
encountered Nelson Flores following a minor traffic accident 
and contacted the LESC for information. ICE special agents at 
the LESC and Columbus officers soon determined that Flores was 
a previously deported felon linked to a drive-by shooting in 
Nevada and was a local leader of MS-13. LESC agents immediately 
lodged a detainer and notified Ohio ICE agents who responded 
and arrested Flores for illegal reentry after deportation.
    I will sum up now, Mr. Chairman, in keeping with your 
instructions to keep to the 5-minute rule, but I will say that 
in the final analysis, Operation Community Shield is a homeland 
security initiative. Every criminal organization that can 
exploit the border is viewed as a potential national security 
threat. In recent months, there have been uncorroborated 
reports in the media and from foreign governments of possible 
links between al Qaeda and MS-13. While neither ICE nor any 
other U.S. Government agency that I know of has credible 
evidence to support these reports, the threat remains that any 
criminal organization that exploits our borders for profit 
could, for the right price, bring in terrorists or bring in 
components of weapons of mass destruction.
    Operation Community Shield marks just the beginning of 
ICE's fight to defeat violent street gangs. I want to thank 
you, Mr. Chairman, and the distinguished Members of this 
Committee for the opportunity to speak about this gang 
initiative before you today, and I look forward to answering 
all of your questions. Thank you.
    [The prepared statement of Mr. Garcia follows:]

         Prepared Statement of the Honorable Michael J. Garcia

    MR. CHAIRMAN AND MEMBERS OF THE SUBCOMMITTEE, thank you for the 
opportunity to speak with you today about U.S. Immigration and Customs 
Enforcement's (ICE) responses to alien gang activity in the United 
States. ICE brings to bear all of its law enforcement and investigative 
powers to combat violent street gangs.
    Ensuring public safety is among the most important homeland 
security missions of ICE. Gang enforcement is a crucial part of that 
mission. In the last decade, the United States has experienced a 
dramatic increase in the number and size of transnational street gangs 
such as Mara Salvatrucha (commonly know as MS-13). These gangs have a 
significant, often a majority, foreign-born membership and are 
frequently involved in human and contraband smuggling, immigration 
violations and other crimes with a nexus to the border. Like any street 
gang, these gangs also have a propensity toward violence. Their members 
commit such crimes as robbery, extortion, assault, rape and murder.
    In 2003 ICE conducted a comprehensive threat assessment on violent 
street gang activity in the United States. The threat assessment 
identified the street gang MS-13 as having a presence across the 
nation, a significant foreign-born membership and a history of 
violence.
    An example of this violence occurred just outside our nation's 
Capital. In May 2004 in Alexandria, Virginia, members of MS-13 
viciously hacked at a rival gang member with machetes, severing the 
victim's hands. The victims of gang crime are not limited to rival gang 
members. Entire neighborhoods and sometimes whole communities are held 
hostage by and subjected to the violence of street gangs. Community 
members are targeted by gangs for extortion, robberies, car-jackings 
and home invasions. In the conduct of drive-by shootings, the bullets 
fired by street gangs do not discriminate between a rival gang member 
and a sleeping infant in the same house.
    Based on this threat assessment, ICE initiated Operation Community 
Shield on February 23, 2005, with priority given to targeting MS-13 
members. The objective of Community Shield is to gather intelligence, 
develop sources of information, and to ultimately disrupt, dismantle 
and prosecute violent street gangs by applying the full range of 
authorities and investigative tools available to ICE. In Community 
Shield we have designated priorities for apprehension based on whether 
a gang member is a threat to national security; in a position of 
leadership; or has a prior violent criminal history.
    Since the beginning of Operation Community Shield, more than 150 
MS-13 gang members have been arrested for immigration violations. Nine 
of those arrested have been identified as leaders. More than half of 
those arrested have violent criminal histories with arrests and 
convictions for crimes such as robbery, assault, rape and murder. In 
one set of arrests, Miami ICE agents apprehended two MS-13 gang members 
wanted by California authorities on murder charges. These two gang 
members were also being sought by local authorities for their suspected 
involvement in home invasions.
    Twenty-two of those arrested have been criminally charged for 
illegal reentry after deportation (8 USC 1326) and are subject to up to 
20 years in Federal prison, depending on their criminal history. 
Examples of illegal reentry arrests include an MS-13 member from Long 
Island who has convictions for burglary, auto theft, harassment and 
sexual abuse of a minor. Additionally, ICE agents in Los Angeles 
arrested four MS-13 gang members that illegally reentered the U.S., all 
with convictions for violent crimes ranging from brandishing a firearm 
to witness tampering. Finally, Newark ICE agents apprehended an MS-13 
gang member for illegal reentry who has prior convictions for armed 
robbery and grand theft.
    ICE's investigative efforts under Operation Community Shield are 
not limited to immigration violations. We have the combined authorities 
for enforcing both customs and immigration laws, which makes our 
approach to fighting organized criminal activity and gang violence 
unique, and more effective. By combining immigration enforcement 
authorities with expertise in financial investigations, we have an 
additional tool to hit these criminal gangs where it hurts--by going 
after their money. One example of how these combined authorities can be 
so effective is in an investigation of a street gang known to transport 
large quantities of narcotics from Mexico into the United States. This 
investigation involves pursuing money laundering charges, drug 
smuggling charges, the use of electronic surveillance and identifying 
and targeting illicit proceeds for forfeiture.
    Through Operation Community Shield, ICE is taking other innovative 
steps to identify MS-13 gang members and disrupt its organizations. The 
ICE Law Enforcement Support Center (LESC) has checked MS-13 gang member 
data provided by our state and local law enforcement partners against 
DHS and other databases to identify and locate gang members. In a 
cooperative effort, ICE and the U.S. Bureau of Prisons (BOP) have 
identified 102 records of MS-13 gang members in the federal prison 
system database. Through the cross-check, ICE and the BOP hope to 
identify MS-13 gang members who may be directing criminal activity from 
behind bars and prioritize jailed gang members for deportation upon 
completion of their sentence.
    The LESC has also developed an innovative way to help identify MS-
13 gang members to first responders. When a State or local police 
agency makes an inquiry to the LESC through the National Law 
Enforcement Telecommunications System (NLETS), the LESC forwards 
inquiry responses that meet a certain criteria to ICE Headquarters for 
further analysis and comparison with data ICE has on MS-13 gang 
members. When a match is found, ICE notifies the inquiring law 
enforcement agency of its findings and coordinates enforcement action 
to be taken. The goal is to prosecute if possible and ultimately deport 
these alien gang members from the United States.
    On December 23, 2004, the Columbus, Ohio Police Department 
encountered Nelson Flores following a minor traffic accident and 
contacted the LESC for information. ICE Special Agents at the LESC and 
Columbus officers soon determined that Flores was a previously deported 
felon linked to a drive-by shooting in Nevada and was a local leader of 
MS-13. LESC agents immediately lodged a detainer and notified Ohio ICE 
agents who responded and arrested Flores for illegal reentry after 
deportation.
    ICE maintains a close working relationship with Mexico, Honduras, 
El Salvador and Guatemala in the exchange of intelligence pertaining to 
MS-13 and other gang activity. ICE established a working relationship 
with Honduran Law Enforcement Intelligence Units regarding the arrest 
of Lester RIVERA-Paz in South Texas. RIVERA-Paz, the alleged national 
leader of the Honduran MS-13 organization, was an international 
fugitive, wanted by Honduran authorities for his involvement in the 
massacre of 28 bus passengers in December of 2004 in San Pedro Sula, 
Honduras. RIVERA-Paz was apprehended by Customs and Border Protection 
Border Patrol agents and placed into ICE custody pending prosecution 
for illegal reentry after deportation. ICE Intelligence secured copies 
of the Honduran arrest warrant, as well as photos and fingerprints of 
RIVERA-Paz to confirm his identity and fugitive status.
    At ICE, we recognize that no single law enforcement agency can win 
the fight against transnational street gangs. ICE is working closely 
with a number of agencies and organizations under Operation Community 
Shield. Such cooperation is critical to the success of this initiative. 
ICE's Operation Community Shield partners include other agencies within 
the Department of Homeland Security; the Department of Justice; 
Department of State; the governments of El Salvador, Honduras, Mexico 
and Guatemala; and state and local law enforcement agencies throughout 
the United States. ICE has a long history of working with our partners 
in law enforcement to leverage our enforcement abilities. Operation 
Community Shield is no exception.
    In the final analysis, Operation Community Shield is a homeland 
security initiative. Every criminal organization that can exploit the 
border is viewed as a potential national security threat. In recent 
months, there have been uncorroborated reports in the media and from 
foreign governments of possible links between Al-Qaeda and MS-13. 
Neither ICE nor any other U.S. Government agency has credible evidence 
to support these reports.
    This operation is just the beginning in our fight to defeat violent 
street gangs. Operation Community Shield is an important public safety 
initiative for the Department of Homeland Security that targets the 
proliferation of gang violence throughout the country. By bringing the 
full range of ICE's immigration and customs authorities in the fight 
against violent street gangs, we can take hundreds of gang members off 
the streets and have a significant impact on community safety.
    I want to thank the distinguished members of this Committee for the 
opportunity to speak before you today. I look forward to answering any 
questions you may have.

    Mr. Hostettler. Thank you, Mr. Secretary.
    Ms. Garst.

   TESTIMONY OF MARSHA L. GARST, COMMONWEALTH'S ATTORNEY FOR 
                  ROCKINGHAM COUNTY, VIRGINIA

    Ms. Garst. Good afternoon, Mr. Chairman, and honored 
Members of the House Judiciary----
    Mr. Hostettler. Could you push the button there on the box 
there?
    Ms. Garst. Good afternoon, Mr. Chairman, and honored 
Members of the House Judiciary Committee. It's a pleasure to be 
here in the springtime. What a lovely day. As the Congressman 
introduced me, I'm Marsha Garst from Rockingham County, City of 
Harrisonburg, and I am serving as Commonwealth's Attorney.
    I have been a lifelong resident of Rockingham County and 
the City of Harrisonburg, as five generations of my family 
before me. So it's with a sense of urgency that I address you 
today as I raise my own family in the valley to let you know 
that with the alien gang problem, our way of life could be 
lost.
    As was the case with my family, many immigrants came to the 
valley for good jobs, an abundance of good agricultural 
opportunities. We have a burgeoning poultry industry and 
agricultural economy. Currently, Harrisonburg is second in the 
State for English as a Second Language program. We have over 56 
different countries of origin in our school system and 38 
different languages spoken. Right now, Spanish is the second, 
of course, primary language in our area, with 72 percent of our 
program being Spanish-speaking. Many of these immigrants have 
contributed to the positive growth of this community, but I'm 
here to address the minority, which is the alien gang group.
    When I began prosecution in 1994, there was a new drug on 
the street called methamphetamine, and there was not one 
organized gang in our area. We only had 160 students in our ESL 
program. Now we have over 1,422. We heard of a gang called MS-
13 first in 1999 when we had two members apprehended who had 
fled from Fairfax County, who were staying with family members 
here in Harrisonburg, regarding a malicious wounding charge 
they had fled.
    Our next contact then came most recently in August of 2003 
regarding a woman by the name of Brenda Paz, whom many of you 
are familiar with. Fairfax investigators advised us that she 
had been living in our community with family members, and she 
was a point of contact for local MS-13 gang members. She later 
cooperated, of course, against MS-13 gang members, rejoined the 
gang, and was murdered, and, of course, as you all know, she 
was pregnant as well.
    We also had another fatality related to gang opportunities, 
which was a young woman who was contacted and involved with MS-
13. She was involved with stealing vehicles in Northern 
Virginia and killed in the process of stealing vehicles with 
MS-13. Her sister, who was only 14 at the time, was later 
arrested in our local high school system for vandalism and gang 
participation due to this MS-13 alliance.
    I would like to introduce from the City of Harrisonburg, 
County of Rockingham Gang Task Force, Sergeant Chris Rush, if 
he would stand a moment. He has provided almost all the facts 
and has been our local expert in this area. He was instrumental 
in providing this data. We have ten active gangs currently with 
100 documented, meaning certified, members that we're aware of.
    Our most powerful gang is Sureno-13. There's at least 75 
percent illegal aliens that we approximate in that group, about 
40 active members. They have already been tied to and 
prosecuted for malicious woundings, firearms violations, 
robberies, abductions, assaults, breaking and enterings, 
larcenies, and vandalisms.
    One case of note was a 15-year-old young lady who was a 
sister of a Sureno-13 member who was stabbed by a rival gang 
member, MS-13. She came to school with stab wounds. A guidance 
counselor saw this. Her family would not cooperate with the 
prosecution due to, one, illegal status and gang ties.
    Another case of note was just recently when we had an 
abduction and robbery where Sureno-13 members went into the 
home of a CRIPS member, held all the residents at gunpoint, and 
robbed them. Several illegal aliens participated in this, and 
they were not prosecuted due to the lack of cooperation of the 
victims. The case had to be dismissed because the young man who 
was the subject of the attack said that he was afraid to 
prosecute.
    Our next most powerful gang is MS-13. There's about 50 
percent of the members that we can corroborate to be illegal 
aliens. The rest are here with political asylum from El 
Salvador. And this doesn't include all the MS-13 members who 
come down from Northern Virginia to help participate in these 
activities. We've already arrested them for malicious wounding, 
firearms violations, larcenies, vandalisms and taggings. One 
MS-13 member most recently was hit with a broken bottle and 
injured pretty badly in February 2005. He went and got a friend 
who was tied with MS-13, and he and another friend went back 
and discharged several rounds of ammunition into the crowd, and 
many people were frightened. Luckily, we didn't have a 
fatality.
    You will find some attached samples of gang taggings. I 
hope that you have these photographs included in your packet. 
The first depicts at a local housing project, Harris Gardens, a 
SUR 13 member executing another rival gang member. Then you see 
someone proud enough to put their SUR 13 ties and very 
prominent markings on their back. The most common hand marking 
of SUR 13 is there, as well as large taggings in a very 
prominent place showing SUR 13 in the main area of our town, 
and then taggings for the MS-13 turf.
    As I sum this up, I want you to know that local teachers in 
our second grade have told us that MS-13 and SUR 13 are already 
recruiting our children. There's a photograph below, gentlemen 
and ladies, that I'd like you to look at, if you have that, 
which shows our middle school traveling here to the nation's 
Capital. You will see two flashing gang signs: the one in the 
front, CRIPS; the back, with the sign of the Bloods.
    There was a significant problem with illegal aliens making 
up gangs in the Shenandoah Valley. In the past month, ICE has 
worked very close. We're very lucky to have now a local office. 
We have ten gang members we identified. Out of these ten, two 
have been deported and have already reentered the United 
States. Three are awaiting criminal charges, and upon 
conviction will be deported.
    There is a nexus about to occur that is very important. In 
Harrisonburg and Rockingham County, 40 percent of the 
methamphetamine that has been seized in the entire State of 
Virginia has come from our locality. What we have seen in 
Shenandoah County, just to the north of us where Ms. Paz was 
killed, that gang ties are already showing gangs to be actively 
moving to methamphetamine. We are yet to see that actively in 
Harrisonburg, but when they realize that they can use 
methamphetamine for the benefit of the gang, then we're in 
trouble because it will go from just individual gain to the 
gain of the gang. Once they decide to do that, then we're going 
to have a crisis.
    I thank you so much for your time this afternoon, and I 
thank you for your attention to this very important problem.
    [The prepared statement of Ms. Garst follows:]

                   Prepared Statement of Marsha Garst

    Good afternoon honored members of the House of Representatives 
Judiciary Committee and guests. It is a pleasure to be back in our 
Nation's Capital in the springtime. My name is Marsha Garst and I am 
the Commonwealth's Attorney of Rockingham County and the City of 
Harrisonburg. Except for my time at the University of Virginia and here 
in Washington, D.C., I have also been a lifelong resident of Rockingham 
County and the City of Harrisonburg. Five (5) generations of my family 
have made their home in the beautiful Shenandoah Valley and as I now 
raise my own family there, it is with a great sense of urgency that I 
ask you to address the Alien Gang crime problem in the Valley of 
Virginia before our way of life is lost forever.
    As was the case with my family, many immigrants have migrated to 
the Shenandoah Valley for the abundance of jobs and the quality of 
living. Most recently, many immigrants have come to Rockingham County 
and the City of Harrisonburg to seek employment in our burgeoning 
poultry industry and agricultural economy. Currently, the City of 
Harrisonburg is second in the state for English as a Second Language 
(ESL) education and has over fifty-six (56) different countries of 
origin and thirty-eight (38) different spoken languages in our public 
school system. Spanish as the primary language makes up seventy-two 
(72) percent of the ESL program attendees. Most immigrants to the 
community have contributed to the positive growth and well being of our 
town. However, I am here to address the dangerous minority--that is 
alien gang members that have come to prey on other immigrants and 
citizens.
    When I began prosecution as in 1994, organized gangs were unheard 
of and new drug--methamphetamine was making its way to our streets. In 
1994, we had 160 students in the ESL program in the City of 
Harrisonburg. In 2004, we had 1,422 students in the ESL program. We 
first heard of a gang called MS-13 in 1999 when we apprehended two (2) 
members of the gang wanted on malicious wounding charges who were 
staying with family members in Harrisonburg after fleeing Fairfax 
County.
    Our next contact with MS-13 came in August of 2003. Virginia State 
Police members and Fairfax County Investigators, advised us that a 
woman by the name of Brenda Paz had been living in Harrisonburg, 
Virginia, with family members. Ms. Paz served as a point of contact for 
MS-13 gang members. As many of you know, she later cooperated against 
other MS-13 gang members and was found brutally murdered in the 
adjoining county of Shenandoah. Ms. Paz was also pregnant.
    Later in 2003, another young woman from Harrisonburg, Virginia died 
due to her gang contacts when her boyfriend and she were stealing cars 
in Northern Virginia for MS-13 and died in a car crash. This young 
woman's surviving sister, who was only 14 years of age at the time, was 
charged after her sister's death with vandalism and gang participation 
due to her alliance with MS-13.
    Currently, the City of Harrisonburg and County of Rockingham has a 
Gang Task Force. This task force has a coordinator with who I have 
worked for a decade, Sgt. Chris Rush--I would like to introduce him at 
the time--he was instrumental in providing the following details: The 
City of Harrisonburg and Rockingham County has ten (10) active gangs 
with over one-hundred (100) documented members.
    The Surenos 13 are currently the most powerful gang over forty (40) 
members strong. This gang draws its ranks from Mexican citizens. They 
are comprised of at least seventy-five (75) percent illegal aliens and 
have been tied to malicious woundings, firearms violations, robberies, 
abductions, assaults, breaking and enterings, larcenies, and vandalisms 
in our community. One sad case of note was a fifteen (15) year old 
sister of a Surenos 13 member was stabbed by a MS-13 member and 
presented at school with stab wounds, but her family would not 
cooperate with the prosecution of her attacker because of the families' 
illegal status and gang ties. Another case of note is the 2004 case of 
abduction and robbery wherein Sur 13 members went to the home of a 
CRIPS member and held residents at gunpoint and robbed residents. 
Several illegal aliens participated in this attack, but could not be 
prosecuted due to the lack of cooperation of the victims. The case was 
dismissed because the victim told his mother he was afraid of SUR 13 
members and refused to testify. The abduction and robbery were 
retaliation for a drug debt. We have also had numerous home invasions 
of illegal alien homes and citizens by SUR 13. SUR 13 knows that 
victims will not prosecute because of their illegal status and many 
cases go unreported.
    Our next powerful gang is MS-13 with twenty-five (25) documented 
local resident members. Approximately fifty (50) percent of these 
members are illegal aliens. The rest are here on political asylum from 
El Salvador. This does not include the many MS-13 members that travel 
down from Northern Virginia to participate in criminal activities. In 
Harrisonburg and the County of Rockingham, we have had malicious 
woundings, firearms violation, assault, larcenies, and vandalisms or 
taggings. One recent case of note, in February 2005, a MS-13 member was 
assaulted with a broken bottle. This MS-13 member went and got two (2) 
friends, one with gang ties, and returned and discharged several 
ammunitions into the area of the crowd where he was assaulted.
    Below, please find examples of the gang markings. The first 
Photograph depicts a tagging on the door of public housing complex--
Harris Gardens, in the City of Harrisonburg. It depicts a SUR 13 member 
executing a local rival gang member. The second photograph depicts a 
SUR 13 member so proud he would wear his markings in a permanent 
tattoo.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The first photograph below depicts a common gang tattoo. The second 
photograph depicts a large tagging by SUR 13.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The photographs below depict recent taggings on well known MS-13 
Turf.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Finally, we have evidence from local teachers of the second grade 
that gang recruiting for MS-13 and SUR 13 has already begun. The 
photograph below depicts local school children on a field trip to our 
Nation's Capitol flashing gang signs. This picture was copied from one 
of our local yearbooks in the Harrisonburg area.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Illegal aliens makeup a significant portion of gang members in the 
Shenandoah Valley. Within the past month, a list of ten (10) gang 
members was given to our local ICE office. Out of these ten members, 
two (2) had all ready been deported and have re-entered the United 
States and three (3) are awaiting criminal charges and upon conviction 
will be deported because of their illegal status. There are also other 
documented cases in which our local police officers have encountered 
gang members/associates who had been deported and re-entered and were 
re-arrested.
    A dangerous nexus is about to occur. Approximately forty (40) 
percent of methamphetamine seized in the State of Virginia was seized 
in Rockingham County and the City of Harrisonburg. Already Shenandoah 
County has seen gang activity tied to methamphetamine. The City of 
Harrisonburg and the County of Rockingham are currently seeing gang 
members in possession of and distributing narcotics. However, it does 
not appear at this time they are doing it for the benefit of the gang, 
but for the benefit of their individual gain. Once gangs decide to use 
the valley drug trade as a profit base, then we will truly have a 
crisis.
    Thank you for your attention to this very serious problem and thank 
you for your time.

    Mr. Hostettler. Thank you, Ms. Garst.
    Ms. Mac Donald.

 TESTIMONY OF HEATHER MAC DONALD, SENIOR FELLOW, THE MANHATTAN 
                           INSTITUTE

    Ms. Mac Donald. Thank you, Mr. Chairman. It's a great honor 
and privilege to be here today before your Subcommittee, which 
is an absolute brain trust of information.
    Does that affect us or are we having a little security 
alert?
    Mr. Hostettler. We will--no, no security alert.
    Ms. Mac Donald. You never know in the capital.
    Mr. Hostettler. We will have a vote in the House of 
Representatives and so--I don't know if we have a series of 
votes, but we will have a vote in the House, so we'll probably 
have to recess for a short time.
    Ms. Mac Donald. Okay.
    Mr. Hostettler. Hopefully we will get through yours and Ms. 
Fernandez's testimony in that time.
    Ms. Mac Donald. So I should continue.
    Mr. Hostettler. Yes, please continue.
    Ms. Mac Donald. Okay. I've had the privilege of working 
with your general counsel in the past, and I'm glad to finally 
be here to see where all the knowledge is coming from.
    My name again is Heather Mac Donald. I'm a fellow at the 
Manhattan Institute. I've written extensively on immigration 
issues and policing, with a special emphasis on Southern 
California and New York City.
    Gang crime is the one category of crime that is exploding 
nationally. It's up 50 percent from 1999 to 2002, and it's 
going to continue to rise so long as our immigration system 
remains broken.
    As Mr. Garcia told us, nobody knows for certain the 
percentage of illegal aliens in gangs, thanks in part to 
sanctuary laws that forbid local police from even inquiring 
into a criminal's immigration status. But there's a few numbers 
that I think are suggestive.
    In Los Angeles, 95 percent of all outstanding warrants for 
homicide target illegal aliens, and approximately two-thirds of 
all felony outstanding warrants target illegal aliens. ICE says 
Mara Salvatrucha is predominantly or majority illegal. Police 
officers will tell you it's basically 100 percent illegal. He 
mentioned the 18th Street Gang or you mentioned the 18th Street 
Gang, which a California Department of Justice study put at 
about 60 percent illegal. Again, cops will say otherwise.
    Now, given such numbers, leveraging a criminal's illegal 
status to have him deported would seem to be an essential 
weapon against gang crime. But in cities and counties across 
the country, police are prohibited from using the most 
immediate and straightforward tool to get illegal criminals off 
the streets: their illegal status.
    Here's how it works: Let's say an officer in Hollywood, 
California, sees a previously deported felon, a member of MS-
13, back at Hollywood and Vine hanging out. Now, the officer 
recognizes him and knows that his mere presence in the country 
following deportation is a Federal felony. But under the 
prevailing understanding of Los Angeles' sanctuary law, known 
as Special Order 40, that cop can't lay a finger on that felon 
for his immigration felony. Instead, he has to wait and 
laboriously build up probable cause for, let's say, a murder or 
an armed assault. But as any prosecutor here knows, it's not 
always certain that you're going to get that probable cause, 
especially with gang crime, since witnesses are terrified of 
retaliation. Using the felon's immigration status now to get 
him off the street is the surest way of protecting the 
community.
    The damage done by sanctuary laws is clear. Let me just 
give you a few examples.
    In late 2002, four illegal Mexicans brutally abducted and 
gang-raped a 42-year-old mother of two near a railroad in 
Queens, New York. Three of these illegal rapists had been 
arrested numerous times for assault, attempted robbery, 
criminal trespass, illegal gun possession. But pursuant to New 
York's sanctuary policy, the police had never notified the INS.
    In Los Angeles, 5 months ago, Carlos Barrera, an illegal 
Mexican, mugged three people, burglarized two apartments, and 
attempted to rape a 5-year-old girl. He had been deported 4 
years ago for crimes of violence but, of course, had reentered. 
Since his reentry, he had been stopped twice for traffic 
violations. But, again, the cops never notified ICE because of 
L.A.'s sanctuary policy.
    Now, L.A. is proposing to issue new guidelines, but it 
merely shows how perverse our attitudes toward border 
trespassing are. It would require a cop to go all the way up 
through his chain of command, then up through ICE's chain of 
command to get a Federal warrant to make an arrest. Your 
average citizen street thug is not required--does not have the 
right to a Federal warrant before being arrested, only illegal 
aliens.
    In conclusion, getting rid of sanctuary laws is only the 
first step to being able to solve the illegal alien gang crime. 
ICE has to come up with sufficient deportation resources and 
detention space, and the Bush administration has to engage in 
the radical step of actually enforcing the immigration laws, 
including laws against hiring illegal aliens. As long as the 
jobs magnet retains its force, we're not going to be able to 
stop the flood of illegals that are bringing terrorists, 
undoubtedly, and criminals in their wake.
    Sanctuary laws are not pro-immigrant. They're anti-
immigrant by keeping violent criminals in the community where 
they're preying predominantly on law-abiding immigrants.
    Thank you very much.
    [The prepared statement of Ms. Mac Donald follows:]

                Prepared Statement of Heather Mac Donald

    My name is Heather Mac Donald. I am a senior fellow at the 
Manhattan Institute for Policy Research, a think tank in New York City. 
I have analyzed illegal immigration for City Journal and the Los 
Angeles Times, among other publications. I have also written a book on 
policing called Are Cops Racist? I appreciate the opportunity to 
testify today on this important topic.
    Sanctuary laws are a serious impediment to stemming gang violence 
and other crime. Moreover, they are a perfect symbol of this country's 
topsy-turvy stance towards illegal immigration.
    Sanctuary laws, present in such cities as Los Angeles, New York, 
Chicago, Austin, Houston, and San Francisco, generally forbid local 
police officers from inquiring into a suspect's immigration status or 
reporting it to federal authorities. Such laws place a higher priority 
on protecting illegal aliens from deportation than on protecting legal 
immigrants and citizens from assault, rape, arson, and other crimes.
    Let's say a Los Angeles police officer sees a member of Mara 
Salvatrucha hanging out at Hollywood and Vine. The gang member has 
previously been deported for aggravated assault; his mere presence back 
in the country following deportation is a federal felony. Under the 
prevailing understanding of Los Angeles's sanctuary law (special order 
40), if that officer merely inquires into the gangbanger's immigration 
status, the officer will face departmental punishment.
    To get the felon off the street, the cop has to wait until he has 
probable cause to arrest the gangbanger for a non-immigration crime, 
such as murder or robbery. It is by no means certain that that officer 
will successfully build a non-immigrant case against the gangster, 
however, since witnesses to gang crime often fear deadly retaliation if 
they cooperate with the police. Meanwhile, the gangbanger is free to 
prey on law-abiding members of his community, many of them immigrants 
themselves.
    This is an extraordinarily inefficient way to reduce crime. If an 
officer has grounds for arresting a criminal now, it is perverse to ask 
him to wait until some later date when maybe, if he is lucky, he will 
have an additional ground for arrest.
    Sanctuary laws violate everything we have learned about policing in 
the 1990s. Police departments across the country discovered that 
utilizing every law enforcement tool in their tool chest against 
criminals yielded enormous gains. Getting criminals off the streets for 
seemingly ``minor'' crimes such as turnstile jumping or graffiti saved 
lives. Gang crime, which exploded 50% from 1999 to 2002, is too serious 
a problem to ignore this lesson.
    No one knows for certain the percentage of illegals in gangs, 
thanks in large part to sanctuary laws themselves. But various 
estimates exist:
    --A confidential California Department of Justice study reported in 
1995 that 60 percent of the 20,000-strong 18th Street Gang in southern 
California is illegal; police officers say the proportion is actually 
much greater. The bloody gang collaborates with the Mexican Mafia, the 
dominant force in California prisons, on complex drug-distribution 
schemes, extortion, and drive-by assassinations. It commits an assault 
or robbery every day in L.A. County. The gang has grown dramatically 
over the last two decades by recruiting recently arrived youngsters, 
most of them illegal, from Central America and Mexico.

        <bullet>  Immigration and Customs Enforcement conservatively 
        puts the number of illegals in Mara Salvatrucha as a 
        ``majority;'' police officers, by contrast, assert that the 
        gang is overwhelmingly illegal.

        <bullet>  Law enforcement officials estimate that 20% of gang 
        members in San Diego County are illegal, according to the 
        Union-Tribune.

        <bullet>  The L.A. County Sheriff reported in 2000 that 23% of 
        inmates in county jails were deportable, according to the New 
        York Times.

        <bullet>  The leadership of the Columbia Lil' Cycos gang, which 
        uses murder and racketeering to control the drug market around 
        Los Angeles's MacArthur Park, was about 60 percent illegal in 
        2002. Francisco Martinez, a Mexican Mafia member and an illegal 
        alien, controlled the gang from prison, while serving time for 
        felonious reentry following deportation.

        <bullet>  In Los Angeles, 95 percent of all outstanding 
        warrants for homicide in the first half of 2004 (which totaled 
        1,200 to 1,500) targeted illegal aliens. Up to two-thirds of 
        all fugitive felony warrants (17,000) were for illegal aliens.

        <bullet>  The Los Angeles Police Department arrests about 2500 
        criminally-convicted deportees annually, reports the Los 
        Angeles Times.

    Though the numbers of illegal gang members remain elusive, the 
evidence for the destructive effects of sanctuary laws is 
incontrovertible. In 2002, for example, four illegal Mexicans, 
accompanied by one legal immigrant, abducted and brutally raped a 42-
year-old mother of two near some railroad tracks in Queens, New York. 
The New York Police Department had already arrested three of the 
illegal aliens numerous times for such crimes as assault, attempted 
robbery, criminal trespass, illegal gun possession, and drug offenses. 
But pursuant to New York's sanctuary policy, the department had never 
notified the INS.
    Five months ago, Carlos Barrera, an illegal Mexican in Hollywood, 
Ca., mugged three people, burglarized two apartments, and tried to rape 
a five-year-old girl. Barrera had been deported four years ago after 
serving time for robbery, drugs, and burglary. Since his reentry 
following deportation, he had been stopped twice for traffic 
violations. But thanks to special order 40, the police had never 
mentioned him to the immigration authorities, reports the New York 
Times.
    In September, 2003, the Miami police arrested a Honduran visa 
violator for seven vicious rapes. The previous year, Miami cops had had 
the suspect in custody for lewd and lascivious molestation. Pursuant to 
Miami's sanctuary law, however, the police had never checked his 
immigration status. Had they done so, they would have discovered his 
deportable status, and could have forestalled the rapes.
    Cousins Aneceto and Jaime Reyes committed murder and a car-jacking, 
respectively, after returning to Los Angeles from Mexico following 
deportation. The Los Angeles police had encountered them before these 
most recent crimes, but had to wait for them to commit murder and a 
car-jacking before they could lay a finger on them for their 
immigration offenses, according to the New York Times.
    The Los Angeles Police Department began revisiting special order 40 
last month. Its proposed revision merely underlines how perverse our 
attitudes towards illegal alien criminals remain.
    Los Angeles's top brass propose to allow a Los Angeles officer who 
suspects that a criminal has previously been deported to contact his 
supervisor about the reentry felony. That supervisor would then contact 
ICE. ICE officials would next go before a federal judge to get an 
arrest warrant for the immigration felony. Then, with warrant in hand, 
the Los Angeles cop may finally arrest the felonious gangbanger-if he 
can still find him.
    This burdensome procedure is preposterous. To arrest an American 
citizen for a crime, arrest warrants are rarely required; about 95% of 
arrests of citizens are warrantless. But in L.A., under the new rules, 
illegal criminals will have due process rights that citizens can only 
dream of: not just judicial review before they can be taken off the 
streets, but federal judicial review-the gold standard of all 
constitutional protections. Maybe home-grown criminals should renounce 
their citizenship and reenter the country illegally. It would be a 
constitutional windfall for them.
    Other jurisdictions that are reconsidering their sanctuary laws are 
also proceeding with unnecessary timidity. The Orange County, Ca., 
sheriff plans to train a few deputies to use immigration laws only for 
special enforcement actions against sexual predators or gangs, reports 
the Los Angeles Times. The Miami Police Department will join with ICE 
only on high-level gang cases.
    These minor tinkerings all put unwise limitations on a vital law 
enforcement power. Local immigration enforcement power should not be 
limited to the felony of reentry following deportation. Nor should only 
a small subset of officers be authorized to use it. There are many 
illegal alien criminals who have not yet reentered following 
deportation, but who are just as dangerous to their communities. Every 
officer should have the power to enforce any immigration violation 
against a criminal suspect, not just immigration felonies.
    Nothing demonstrates the necessity of this power better than ICE's 
March enforcement action against Mara Salvatrucha. Following the March 
round-up, ICE proudly displayed three of its trophy cases: the founding 
member of MS-13 in Hollywood, Ca., who had already been convicted for 
robbery and possession of a dangerous weapon; the leader of MS-13 in 
Long Branch, NJ, who had a prior criminal history of aggravated arson, 
weapons possession, grand larceny, and criminal possession of stolen 
property; and the founder of Port Washington, NY's, MS gang, who had a 
prior drug conviction.
    ICE got all three of these leading gang bangers off the streets 
through what it calls administrative immigration violations, not felony 
immigration violations. Local officers in Hollywood, Long Branch, and 
Port Washington, as elsewhere, should have the power to use any type of 
immigration violation as well to get a thug (who may also prove to be a 
terrorist) off the street.
    Immigration enforcement against criminals should also not wait upon 
a major federal-local gang initiative. The majority of opportunities to 
get criminals off the streets come from enforcing misdemeanors and 
quality of life offenses. While the police are waiting to make a major 
federal case against an illegal criminal, they are far more likely to 
have picked him up for a ``petty'' theft or an open-container offense. 
Officers should be empowered at every arrest or lawful stop to check 
someone's immigration status. If a suspect is committing an immigration 
offense, the officer should be empowered to arrest him immediately for 
that offense.
    Jails and prisons should routinely check the immigration status of 
their prisoners. Such an initiative should not be dependent on the 
presence of an ICE officer stationed in a prison; there are simply not 
enough federal agents available to cover the relevant facilities. 
Moreover, ICE agents do not routinely visit local jails where 
misdemeanor offenders are held, yet those offenders may be as dangerous 
to the community as someone against whom a felony case has been made. 
Someone convicted of stealing a jacket today may be shooting a rival 
tomorrow. And many misdemeanor convicts in jails have been allowed to 
plead down from more serious felonies.
    The standard argument for sanctuary laws is that they encourage 
illegal aliens to work with the police or seek government services. 
This argument is based on myth, not evidence. No illegal alien advocate 
has ever provided a shred of evidence that sanctuary laws actually 
accomplish their alleged ends. Nor has anyone shown that illegal aliens 
are even aware of sanctuary laws. The evidence for the destructive 
effects of sanctuary laws is clear, however.
    The idea that sanctuary laws are ``pro-immigrant'' is perhaps the 
greatest myth of all. Keeping illegal criminals in the community 
subjects all immigrants to the thrall of crime and impedes economic 
growth in immigrant communities.
    Obviously, the final prerequisite for ridding immigrant communities 
of illegal thugs is enough ICE detention space and deportation 
resources. But providing police officers with every lawful tool to 
fight crime is a crucial first step to protecting immigrant lives and 
should be the unanimous recommendation of the Subcommittee.

                               ATTACHMENT

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Hostettler. Thank you, Ms. Mac Donald.
    Ms. Fernandez.

  TESTIMONY OF MAI FERNANDEZ, CHIEF OPERATING OFFICER, LATIN 
                     AMERICAN YOUTH CENTER

    Ms. Fernandez. Good afternoon, Mr. Chairman and Members of 
the Committee. It is a pleasure to be here before you today to 
speak on the issues related to gang memberships and 
immigration.
    Before I go into the substance of my testimony, I would 
like to tell you a bit about the Latin America Youth Center 
where I work. The Latin America Youth Center is based in D.C. 
in the Columbia Heights neighborhood just up the street on 14th 
and Columbia Road. It is a community-based, multicultural, 
multi-lingual youth and family development center. We provide 
many educational programs and tutoring for youth who are in 
school as well as GED and vocational training for those who 
have dropped out. Additionally, we offer substance abuse 
counseling for young people in need of these services and 
housing for homeless youth.
    We serve about 3,000 youth through our programs. I think 
that it is safe to say that a majority of our youth are gang-
involved or have been gang-involved. However, I need to point 
out that only a small number of our kids are involved in 
criminal activity.
    Let me explain. Many of the parents of our youth immigrated 
to the United States to find safety and a better way of life. 
Upon arriving in the U.S., many of these adults find themselves 
in need of working two to three jobs to make ends meet. Keeping 
the family clothed, fed, and housed becomes the priority. 
Unfortunately, this means that children are not provided the 
supervision they need.
    The lack of supervision often leads to boredom and a sense 
of insecurity which causes the children to join gangs. Joining 
a gang gives a youth a group of friends to hang out with and a 
sense of security they cannot elsewhere find in their lives. 
These kids are not super-predators. They are kids looking for a 
sense of belonging. Most of the youth who are in gangs are not 
criminals. It would be inappropriate to punish all immigrant 
youth who are in gangs by taking away their immigration status.
    Having said this, I am a former prosecutor from Manhattan 
and do believe that when a gang member gets involved in 
criminal activity, there needs to be a decisive law enforcement 
response. Two years back, Columbia Heights, D.C., where I work, 
was plagued with a spree of gang-related murders. There was a 
swift law enforcement response which investigated the cases and 
apprehended the perpetrators. Several of these young people are 
now serving life sentences. The law enforcement response sent a 
clear message to other gang-involved youth: If you commit 
crimes, you will be punished.
    After the spree of homicides, both the community and the 
police realized that they should not only respond to gang-
related criminal activity, but should also work together to 
prevent it. As a result, the Gang Intervention Partnership, the 
GIP, was created. The GIP brings together police, probation 
officers, prosecutors, and community social service providers 
to develop intervention strategies for youth who are at high 
risk of committing crimes. What often occurs is that a 
community member will find out that a youth is in some kind of 
trouble. The members of the GIP come together to ensure that 
the youth is supervised and that he or she is involved in 
structured activities. If the youth faces real security 
problems, arrangements have been made that the youth be placed 
in a witness protection program. The outcome has been that 
there have been no gang-related homicides in Columbia Heights 
in the last 2 years.
    I'd also like to make the point that a youth who has been 
involved in a gang-related criminal activity can turn around 
his or her life. At the Latin America Youth Center, we have 
several programs that work with youth who have a criminal 
record. We have reentry programs whereby probation officers 
assign us newly released youth, and we help them find jobs, 
educational opportunities, and counseling. In other instances, 
the youth come to us freely looking for opportunities to change 
their lives. Every year we graduate approximately 70 youth from 
our programs who have advanced their education and who are 
ready to find jobs.
    Our community has been able to tailor an effective and 
appropriate response to gang-related crime in our area. This 
experience has brought me to believe that a Federal response to 
the gang issue may be inappropriate, particularly an 
immigration response. Although we still have a steady influx of 
immigrants coming to our community, the majority of youth are 
born in the United States. Consequently, an easier way of 
deporting youth would not solve our particular gang problem.
    Moreover, the character of gangs can change from 
neighborhood to neighborhood, and it most definitely changes 
from State to State. I know that the panel here has talked to 
you about the atrocities of MS-13. Despite the MS-13's visible 
presence in Virginia, it has a very small presence in D.C. And 
I should add that the majority of our Latino youth are 
Salvadorean. Different tactics need to be used to address the 
gang problems in different jurisdictions. Federal solutions are 
too wide-sweeping to address the unique problems of a 
particular area.
    Lastly, I'd like to point out that the gang situation in 
this country has to be kept in perspective. Despite the media 
attention received by the issue, serious youth crime has 
fallen. The most recent crime survey from the FBI's Uniform 
Crime reporting program that breaks down the age of people 
arrested for serious offenses in 2003 showed that the number of 
people under 18 arrested declined by 30 percent. Moreover, 
between 1993 and 2003, youth homicide arrests declined 75 
percent. Gang crime is serious, but the response needs to be 
proportionate to the problem. Enacting legislation that would 
imperil the immigration status of countless people but may have 
little effect on decreasing crime is not a wise response to the 
problem.
    Thank you very much, and I am here to answer any questions.
    [The prepared statement of Ms. Fernandez follows:]

                  Prepared Statement of Mai Fernandez

    Good afternoon, Congressman Hostettler, Congresswoman Jackson Lee 
and members of the Committee. It is a pleasure to be before you today 
to speak on issues related to gang memberships and immigration.
    Before I go into the substance of my testimony, I would like to 
tell you a bit about the Latin American Youth Center (LAYC) where I 
work. The LAYC is based here in DC in the Columbia Heights 
neighborhood. It is a community-based, multi-cultural and multi-lingual 
youth and family development center. We provide many educational 
programs and tutoring for youth who are in school as well as GED and 
vocational training for those who have dropped out. Additionally, we 
offer substance abuse counseling for young people in need of those 
services and housing for homeless youth.
    We serve about 3,000 youth through our programs. I think that it is 
safe to say that a majority are gang involved or have been gang 
involved at some point in their life. However, only a small number of 
our kids are involved in criminal activity.
    Let me explain. Many of the parents of our youth immigrated to the 
United States to find safety and a better way of life for their 
children. Upon arriving in the U.S. many of these adults find 
themselves needing to work 2 to 3 jobs just to make ends meet. Keeping 
the family clothed, fed and housed becomes the priority. Unfortunately, 
this means that children are not provided the supervision that they 
need.
    The lack of supervision often leads to boredom and a sense of 
insecurity which cause the children to join gangs. Joining a gang gives 
a youth a group of friends to hang out with, and a sense of security 
which they cannot get elsewhere in their lives. These kids are not 
super-predators--they are kids looking for a sense of belonging. Most 
youth who are in gangs are not criminals. It would be inappropriate to 
punish all immigrant youth who are in gangs by taking away their 
Temporary Protection Status.
    Having said this, I am a former prosecutor from Manhattan, and do 
believe that when gang members get involved in criminal activity there 
needs to be a decisive law enforcement response. Two years back, 
Columbia Heights, D.C., where I work, was plagued with a spree of gang 
related murders. There was a swift law enforcement response which 
investigated the cases and apprehended the perpetrators. Several of 
these young people are now serving life sentences. The law enforcement 
response sent a clear message to other gang involved youth--if you 
commit crimes you will be punished.
    After the spree of homicides, both the community and the police 
realized that they should not only respond to gang related criminal 
activity, but should also work together to prevent it. As a result the 
Gang Intervention Partnership--the GIP--was created. The GIP brings 
together police, probation officers, prosecutors and community social 
service providers to develop intervention strategies for youth who are 
highly at risk of committing crimes. What often occurs is that a 
community member will find out that a youth is in some kind of trouble. 
The members of the GIP come together to ensure that the youth is 
supervised and that he/she is involved in structured activities. If the 
youth faces real security problems arrangements have been made to place 
the youth in witness protection programs. The outcome has been that 
there have been no gang-related homicides in Columbia Heights in the 
last two years.
    I'd also like to make the point that a youth who has been involved 
in gang-related criminal activity can turn around his/her life. At the 
Latin American Youth Center we have several programs that work with 
youth who have a criminal record. We have re-entry programs where by 
probation officers assign us newly released youth and we help them find 
jobs, education opportunities and counseling. In other instances, the 
youth come to us freely looking for opportunities to change their 
lives. Every year we graduate approximately 70 youth from our programs 
who have advanced their education and who are ready to find jobs.
    Our community has been able to tailor an effective and appropriate 
response to gang-related crime in our area. This experience has brought 
me to believe that a federal response to the gang issue maybe 
inappropriate--particularly an immigration response. Although, we still 
have a steady influx of immigrants coming to our community, the 
majority of our youth are born in the United States. Consequently, an 
easier way of deporting youth would not solve our gang problem.
    Moreover, the character of gangs can change from neighborhood to 
neighborhood and it most definitely changes from state to state. I know 
that many of you have heard about the atrocities committed by MS13 
members. Despite MS13's visible presence in Virginia, it has a very 
small presence in DC. Different tactics need to be used to address the 
gang problems in different jurisdictions. Federal solutions are too 
wide sweeping to address the unique problems of a particular area.
    Lastly, I'd like to point out that the gang situation in this 
country has to be kept in perspective. Despite the media attention 
received by this issue, serious youth crime has fallen. The most recent 
crime survey from the FBI's Uniform Crime reporting program that breaks 
down the age of people arrested for serious offense in 2003 showed that 
the number of people under 18 arrested declined by 30%. Moreover, 
between 1993 and 2003, youth homicide arrests declined by 75%. Gang 
crime is serious but the response needs to be proportionate to the 
problem. Enacting legislation that would imperil the immigration status 
of countless people but may have little effect in decreasing crime is 
not a wise response to this problem.
    Thank you for your time. I am available to answer questions at this 
time.

    Mr. Hostettler. Thank you, Ms. Fernandez.
    The Subcommittee will now recess for approximately 30 
minutes. We have two votes in the House, and I assume we will 
be 30 to 35 minutes, and we appreciate your indulgence.
    We are recessed.
    [Recess.]
    Mr. Hostettler. The Subcommittee will come to order. We 
will now turn to questions from Members of the Subcommittee. 
The Chair recognizes himself for 5 minutes.
    Secretary Garcia, nationals of three countries that are 
reportedly sources of large numbers of gang members--Nicaragua, 
Honduras, and El Salvador--currently are eligible for temporary 
protected status, or TPS, in the United States. This 
Subcommittee has been told that two of three purported gang 
members accused of raping two deaf girls in a Massachusetts 
park in 2002 were Salvadorans who had applied for temporary 
protected status. How many criminal gang members that ICE has 
arrested in its anti-gang efforts had TPS?
    Mr. Garcia. Thank you, Mr. Chairman. I will use the 
Operation Community Shield universe, so to speak, and that was 
5,000 members, gang members in a database that we compiled for 
Operation Community Shield. Of that number, the following 
numbers of aliens had been granted temporary protected status: 
for El Salvador, 291; for Honduras, 43; and for Nicaragua, one. 
So somewhere in the neighborhood of 350.
    Mr. Hostettler. Thank you. Have TPS grants to nationals of 
those three countries made it more difficult for ICE to use the 
immigration laws to remove alien gang members from the United 
States? And if so, in what ways?
    Mr. Garcia. If someone has been granted TPS, in order to 
remove them from the United States, in effect to take away that 
status, you have to show certain criminal convictions.
    In the case of Operation Community Shield, ICE had arrested 
three gang members who had TPS status. In spite of that status, 
they are subject to removal. So it really depends on the 
history, particularly the criminal history, of the particular 
gang member.
    Mr. Hostettler. Thank you.
    Ms. Mac Donald, in your testimony, you state that, 
``Sanctuary laws are a serious impediment to stemming gang 
violence.'' In what ways do sanctuary laws impede law 
enforcement's anti-gang efforts?
    Ms. Mac Donald. Sanctuary laws impede local law 
enforcement's anti-gang effort because they deprive cops of 
often their only tool to get a gang member off the street. As I 
said, it's often very difficult to build a typical criminal 
case against a gang member because a witness fears that he's 
going to get shot if he testifies against him.
    We've learned in New York City that the best way to fight 
crime is to use every single law on the books. Mayor Giuliani 
brought crime down 70 percent by using things like turnstile-
jumping laws, the graffiti laws, and he found that there's a 
great chain of being in criminal activity. Somebody who is 
stealing a coat one day is shooting somebody the next day, or 
somebody who's spraying graffiti one day is robbing somebody of 
their wallet in Central Park the next day.
    Somebody who is in the country illegally and is committing 
crime, if you can leverage that immigration offense now to get 
him off the streets, to my mind it's insane to require the 
police department to laboriously build up a criminal case 
against them because that may never happen. We all know that a 
huge majority of crimes never get reported. Police officers in 
L.A., in particular, chafe every single day under Special Order 
40 because they know how it ties their hands to making 
communities safe.
    Mr. Hostettler. Thank you. In your testimony, you discuss 
the need for resources to deal with this issue of gang 
violence. Last year, in the National Intelligence Reform Act, 
we included provisions that the President signed into law 
calling for effectively tripling the number of ICE agents, 
4,000 over 5 years; doubling the number of Border Patrol 
agents, 10,000 more over the next 5 years; and tripling the 
number of detention beds, 40,000 over the next 5 years.
    Do you think these resources would be helpful in this fight 
against gang violence?
    Ms. Mac Donald. Chairman Hostettler, they're essential. 
They're absolutely essential. I've talked to border agents, 
especially on the Canadian border, who are picking up the 
category of OTMs on a weekly basis, other than Mexicans, 
Bangladeshis, Iranians. They have no idea who these guys are. 
They have no place to put them, and it's catch-and-release 
policy. They catch them and they release them. They say, 
Please, Mr. Illegal Alien, show up in 6 months for your 
deportation hearing.
    We all know what happens. Eighty-five percent never show up 
again, and people from terrorist-sponsoring countries have 
about a 96-percent no-show rate.
    So giving police or ICE greater resources to arrest people 
for immigration crimes is meaningless if we simply release them 
back into the country. And I cannot understand why the Bush 
administration has not followed the will of Congress in that in 
budgeting for the positions and the beds that Congress so 
clearly passed in the intelligence reform bill.
    Mr. Hostettler. Thank you.
    At this time the Chair now recognizes the gentlelady from 
Texas, the Ranking Member, for purposes of an opening statement 
and questions.
    Ms. Jackson Lee. Mr. Chairman, first of all, thank you very 
much for yielding me the time, and let me for the open record 
indicate that I serve on two Committees dealing with this 
question. And at the beginning of the hearing, I was in the 
Homeland Security Committee with the new Secretary. And 
inasmuch as that was our first time with him on some very 
important management issues and policy issues, I ask and thank 
the Committee for its indulgence, and thank you very much for 
the opportunity for my opening statement.
    Mr. Chairman, what I would like--I see that there's another 
Member here. I'd like to give the opening statement and then 
have you yield to the other Member for his questioning, and 
then I'll come back to my questioning at that time. Thank you 
very much.
    It seems that we have been encountering the question of 
immigrants, immigration, and a series of changes that have come 
about over the last couple of weeks. The border States in the 
Northern border and Texas in particular in the Southern border 
are up in arms about new policies suggesting that passports 
need to be utilized for what has been a comfortable 
relationship in those States, partly in the United States in 
terms of commerce and exchange. But we realize that it's 
important for policies to be established so that we can in a 
comprehensive manner secure our borders and secure the 
homeland.
    As we look at the different issues, I think that it is 
important to establish priority for what is important. 
Obviously, someone in the policy sector thought that as an 
expansion of the 9/11 intelligence bill that possibly the use 
of passports might be helpful. I, on the other hand, question 
whether or not another focus could be utilized to ensure that 
people who cross the border, at least those who are interested 
or involved in commerce, might be able to use another document 
and be more flexible.
    This speaks in particular to where we are today on this 
particular hearing. I wonder whether or not this is a crisis, 
whether this is an emergency, whether or not this is not an 
area that could be handled in a totally different way or over 
an extended period of time to review what has become, I 
understand, an increasing membership in gangs.
    I recall some maybe 10, almost 15 years ago being a member 
of the Houston City Council, and our own youngsters were 
engaged in gang activity. It was raging all over the nation. We 
began to use what I think Ms. Fernandez has mentioned--
intervention. And it's interesting that you mentioned, Ms. 
Fernandez, that the participation in crime among adolescents 
and youth has substantially gone down, as I understand your 
testimony. So allow me just to share a few thoughts about this 
particular hearing and what I think needs to be a balanced 
approach.
    The Department of Justice has mentioned that we have more 
than 25,000 gangs in the United States. The most recent 
national youth gang survey indicates that there are more than 
750,000 gang members. Some of these gangs resemble organized 
crime syndicates. They commit gun violence, gun trafficking, 
drug trafficking, and other serious crimes.
    Needless to say, I'm not diminishing the impact of gangs 
and that they can be extremely dangerous. I certainly am 
reminded of what I think was an urban gang, a citizen-based 
gang, if you will, that plagued the streets of Baltimore and 
caused the loss of life of a mother, a father, and five of her 
children, only because she wanted to stand up to them and told 
the police that they were trafficking drugs in the community.
    I am not here to promote the Gang for a Day Program. But 
the gang we hear most about at this hearing is, of course, the 
MS-13. Composed mainly of Salvadoreans and other Central 
Americans, this gang has an estimated 8,000 to 10,000 members 
in the United States. MS-13 was established in Los Angeles in 
the 1980's by Salvadoreans fleeing from a civil war. When they 
came to Los Angeles, Mexican gangs preyed on them. The response 
was to band together in a mara or posse, and it was to engage 
in, if you will, conflict.
    According to the ICE Bureau, the need to respond to the 
proliferation of MS-13 gangs is becoming a public safety 
priority. In January of 2005, ICE launched Operation Community 
Shield. The goal of this operation is to dismantle the MS-13 
organization by targeting its members' financial assets, et 
cetera.
    To do this, ICE will bring to bear all of its law 
enforcement investigative powers, including criminal 
prosecution, immigration authorities, financial investigation, 
asset seizures. ICE will work with partners in the Federal law 
enforcement community, including U.S. Attorney's Offices, the 
FBI, DEA, ATF, and ICE will also work with foreign governments 
to identify known gang members. ICE agents have arrested more 
than 135 MS-13 gang members nationwide.
    The gang problem is being addressed at the local level, 
too. In 1997, the Fairfax Police Department made youth gang 
crime a priority and established a Gang Investigation Unit. In 
2003, funding from the U.S. Congress enabled the creation of a 
Northern Virginia Gang Task Force, and that task force worked 
very closely with ICE.
    It is important to emphasize that Northern Virginia does 
not limit its effort to law enforcement activities. The task 
force also does public education, awareness presentations, 
provides gang activity awareness training to school resource 
officers and Fairfax County Public School personnel, and has 
established diversion programs such as GREAT, Gang Resistance 
Education and Training.
    I'm pleased to also acknowledge that out of the siege of 
gangs in Houston, we established a gang office and gang task 
force.
    I say that in conclusion to acknowledge this--and might I 
say, Mr. Garcia, that the Secretary was very complementary of 
ICE and the enforcement activities when I probed him about the 
funding problems with ICE. He has offered that he looks forward 
to raising the profile of ICE. And when we hear about what 
they've done in this gang effort, I too applaud this.
    My problem is that if we have this hearing to write more 
legislation, to take young people who are associating with 
gangs for the very reason that Ms. Fernandez has said, to be 
part of something, to find a family base, to find comfort in a 
foreign land, then I think we're doing the wrong thing.
    Many of these individuals who are not citizens may, in 
fact, however, have come here in very early life. That means 
the same problem that we had when we passed the 1996 
immigration reform bill where one strike, one criminal 
incident, one juvenile incident caused individuals to be 
prospectively deported to places where they had never lived, 
this to me is the beginning of a wrong direction.
    I believe if there is a consistent criminal history of some 
gang member, then rightly so on a case-by-base basis a 
determination of deportation can be made. But if this is a web 
of--if you will, sort of a fishnet being thrown out to the 
local gang on the street corner, and in comes 13-year-olds and 
14-year-olds and 15-year-olds and 16-year-olds and 17-year-olds 
who are associated by a membership or a desire to belong or 
because they don't speak the language here in the United 
States, then I think we make a grave mistake by yielding and 
allowing those intervention efforts to be utilized and passing 
massive immigration reform that includes--and I've been sort of 
generous with my words--immigration laws. I don't consider it 
reform--and start labeling and deporting masses of young people 
in an unnecessary effort.
    And so, Mr. Chairman, I welcome this hearing, but I hope 
that we will have a hearing on the President's guest worker 
program that I think needs more than tinkering with. I hope 
we'll have a hearing on my earned access to legalization and 
comprehensive reform which allows undocumented aliens in the 
United States to be able to stand in line and access 
legalization.
    I hope we will complete the CASE Act, which part of the 
legislation that's dealing with anti-smuggling, got into the 
intelligence bill, but I believe that we need to put in place a 
reward system that will allow more evidence to come in and more 
information to come in to stop smuggling of individuals into 
the United States. This, I think, speaks to real immigration 
reform.
    So I look forward to questioning the witnesses, and at the 
time of my questioning, I will submit into the record or ask to 
the submit into the record a letter from the city of Houston 
Anti-Gang Task Force. I look forward to working with you, but 
let's look at the crisis and the serious issues and let's try 
to find common ground on issues like this.
    I yield back.
    Mr. Hostettler. I thank the gentlelady.
    The Chair now recognizes the gentleman from Iowa, Mr. King, 
for 5 minutes.
    Mr. King. I thank the Chair, and I thank the witnesses for 
their testimony today.
    As I listened to this testimony, there are a few things 
that caused me to raise my eyebrows, and I thought I had a feel 
and an understanding of some of the magnitude. But as we 
debated the gang act earlier in full Committee and as I 
listened to your testimony and Ms. Garst, as I recall that 
testimony, say gangs are about 75 percent illegals in the 
region that you would be familiar with, and as I see some of 
your--I think your written testimony says that about 50 percent 
may well be El Salvadoreans. And if I remember correctly, Ms. 
Mac Donald, you may have stated that in the high 90th 
percentile was illegal gang activity in the region that you're 
familiar with. Would that still be correct? Did I get that 
right?
    Ms. Mac Donald. I think the number you're referring to is 
95 percent of outstanding homicide warrants in Los Angeles.
    Mr. King. I do recall that statement.
    Ms. Mac Donald. Are illegal aliens, right. But according to 
police, say, something like MS is overwhelmingly illegal, far 
more than a mere majority.
    Mr. King. So would that number be in the 90's, would you 
expect?
    Ms. Mac Donald. I would say, yes.
    Mr. King. And I know that's probably impossible to nail 
that down factually.
    Ms. Mac Donald. You know, the sanctuary laws prevent us 
from knowing that, and, of course, the denominator is unknown 
either because we don't really know the number of gangs, 
period. So it's all a speculation game.
    Mr. King. Another piece that came out of the testimony is 
that even if that number were 100 percent illegals involved in 
gang activity--I don't expect that they're actively and 
aggressively recruiting others, which would be American 
citizens, children, our children who are being victimized by 
this kind of gang activity, and I'd just ask you this: In an 
ideal world, the world I thought I grew up in, we would have 
enforced these laws a long time ago. And could you maybe just--
by the look on your face, maybe you speculated the same thing, 
and I'd ask you to paint the picture of the way the world would 
be if we had gone back 20 years and enforced our immigration 
laws the way we all expected that we would.
    Ms. Mac Donald. Well, I think you would have more respect 
for the rule of law. You would not have the smuggling trade if 
people in countries bordering us knew that when they came to 
this country illegally, they were not entering a safe zone. You 
would not have criminal syndicates able to get across the 
border because the demand wouldn't be there.
    The failure over decades to enforce laws on the books has 
given rise to the fact that we now have, since 9/11, made no 
progress in controlling illegal immigration. This is a scandal. 
A terrorist cannot commit damage on our soil if he's not here. 
But we have not been able to stop the half a million net that 
come across the border every year. And that's because we have 
decided not to enforce immigration laws for decades. 
Republicans haven't enforced them; Democrats haven't enforced 
them. And this has basically sent a message to the world that 
if you can cross our border, you're home free.
    Mr. King. Thank you, Ms. Mac Donald.
    And, Ms. Garst, would you inform this Committee as to what 
ICE would need to do to deport an alien gang member who has 
been granted asylum?
    Ms. Garst. The position that we're put in, sir, is 
unenviable, and that often we don't know the status until we're 
at a bond hearing on a criminal charge. Then we are blessed now 
by Congressman Goodlatte to have local ICE agents. When I began 
my prosecution career in 1994, we had no support in that 
regard. We would call the local office here.
    What we do is contact our local ICE agents. A number of 
hearings are held. Our primary concern on our level, on a 
small, rural, local level is can I hold these individuals 
without bond on violent crimes. And I will tell you, unless we 
can get a very fast answer regarding their immigration status, 
often they're not held and they're bonded.
    So we don't even get to the deportation process in many 
cases.
    Mr. King. I have another question that I'm very curious 
about, and that is this culture of the illegal ethnic enclave 
that tends to be a community. Has that culture of that illegal 
ethnic enclave, has that been the environment that has produced 
this gang violence? Ms. Mac Donald first.
    Ms. Mac Donald. Yes, it's a very odd type of underclass 
that we're generating. You have guys that are working as day 
laborers during the day, and then they gang-bang at night. And 
the police basically, you know, know where they're getting off 
their pizza parlor job, and then they go join their gang 
members and sometimes, as Ms. Jackson Lee suggests, it's simply 
community activity, but often it's criminal activity.
    And what you're seeing, as you yourself suggested, second 
and third generation immigrants at an ever younger age are also 
getting sucked up into the gang culture.
    Mr. King. Thank you.
    Thank you, Mr. Chairman.
    Mr. Hostettler. The gentleman's time has expired.
    The Chair now recognizes the Ranking Member for 5 minutes 
for questions.
    Ms. Jackson Lee. Thank you very much.
    Ms. Fernandez, why don't I start with you. You've heard the 
exasperation, I think, of Ms. Mac Donald and Ms. Garst with 
respect to the violence or the criminal activity. I'm opposed 
to a broad brush to that--to those representations. I do 
believe that we've got to find ways of enforcing immigration 
laws or finding laws to enforce. At the same time, I believe 
that there is danger to broad-brushing these groups known as 
gangs and also danger in a broad-brush removal, for example, of 
a TPS status rather than looking at the pattern of the 
individual's activity or looking at it maybe on a case-by-case 
determination.
    Tell me again through your testimony how you would--how you 
would help decipher, if you would, how you would part the 
waters on who could be saved, what intervention does versus the 
criminal activity that the two other witnesses are speaking of.
    Ms. Fernandez. Thank you. Prior to coming here, I met with 
the Gang Task Force, which is--the Metropolitan Police 
Department has a Gang Task Force here. And I said, okay, truly, 
what do you think has stopped the fact--the homicides in the 
Columbia Heights area, because if any of you were watching the 
Washington Post, the news 2 years back, we just had kid after 
kid after kid killed. And they said we have 85 of the gang 
heads in prison right now, five of which are serving life 
sentences. That is a very decisive law enforcement response, 
which I completely and totally agree with. Those kids have 
committed horrible crimes, and they should be in prison.
    However, we've got lots of young people, young adults that 
are working for us, that are with us, that have been in one way 
or another associated with a gang. And so if you lump murderers 
and kids who want to be cool and say that they're a member of a 
gang because it's cool when you're 16, 17 years old to say that 
you're part of something that's bigger than yourself, then you 
can't lump those two groups of people together. One's a 
teenager and the other one's a criminal. And you have to have 
different kinds of interventions for both. One's a very strict 
law enforcement intervention. The other one is let's find 
something for you to do, remain cool and remain feeling like 
you're belonging to something, but yet let's not put you in a 
category where we're going to throw you into a category of 
criminals.
    You know, I also need to take some issue with what Ms. Mac 
Donald said, that, you know, we've got day laborers that are 
then becoming gang members. That may be true in certain 
specific instances, but if anybody has worked as a day laborer 
where you're laying bricks every day, probably chances are that 
in your evening job you don't have the energy to pick up and 
then start doing gang activity. Most--many of our parents, many 
of the people who we work with, work two to three jobs. They're 
the people who clean, you know, offices at night. They're the 
people who do work that other people in this country don't want 
to do.
    So I think that we've got to be very careful of lumping 
everybody with a Latino surname into the category of a person 
who's doing bad. So I think that we've got to be very careful 
of not doing broad-brush type sweeps.
    Ms. Jackson Lee. Mr. Garcia, if you would, we've made a 
very strong point in separating responsibilities of the Federal 
Government from State government, and one of those has been 
immigration. That is a Federal responsibility. We forged the 
Homeland Security Committee--excuse me, Homeland Security 
Department in order to bring more focus on immigration and 
other aspects of securing the homeland.
    If we were to change the sanctuary laws and begin to engage 
local law enforcement of every level, I would think that maybe 
the good work that Ms. Fernandez discovered at the Washington 
Metropolitan Police Department might not have been such good 
work because, frankly, law enforcement locally, whether they're 
constables or sheriffs, are overburdened. Is it the position of 
the Justice Department to want to rid the system of the 
sanctuary laws and begin to pierce into local jurisdictions for 
them to begin to do Federal immigration work? First question.
    The second question is, which plays into this: If we are to 
blanket the war or the fight against gangs, which, as Ms. 
Fernandez has said, would come in all shapes and sizes, some of 
them will have a violent history and should be incarcerated. 
You indicated a criminal history. Should we be blanketing 
treatment toward them on the basis of overall violent acts? If 
we are to do that--then this may not have the nexus that I'd 
like it to have--what do we do about citizens who are taking up 
arms on the Arizona border and setting themselves up 
independently to be of assistance, albeit out of frustration? 
If we lose control over one, we lose control over another.
    Mr. Garcia. Thank you, Congresswoman. Your first question, 
certainly immigration enforcement is a Federal responsibility. 
There are statutes that States and local jurisdictions can take 
advantage of to actually participate in the enforcement of 
immigration law in a formal way, under 287(g) as the provision. 
Florida has taken advantage of that statute, as has Alabama. So 
there's a legal mechanism for actually State and local 
officials to get training from the Department of Homeland 
Security, from ICE, and become in essence deputized under our 
supervision, again, with the appropriate training and go out 
and enforce the----
    Ms. Jackson Lee. And that's the choice of that particular 
jurisdiction.
    Mr. Garcia. Opt in, so to speak, that's correct, in certain 
jurisdictions. I believe L.A. County recently has passed 
legislation to do that as well.
    So there are specific provisions for affirmative 
enforcement by local jurisdictions.
    In terms of the sanctuary laws and piercing the sanctuary 
laws, I have some trouble understanding the concept. We enforce 
the law. We have good working relationships with State and 
local jurisdictions. There are natural partnerships there. Some 
jurisdictions, mainly at a political level, have passed 
statements and representations that they are sanctuaries in 
terms of immigration law. As an overall matter I think it's a 
very bad message, but I don't know what the specific impact 
would be within the jurisdiction on our enforcement 
capabilities. We would still go in. We would still have the 
right to enforce the law, whatever law, immigration law in this 
case, in those jurisdictions, and we do that.
    And in most cases--and I come from New York--I know we have 
a very good working relationship with the NYPD up there, and 
there are many ways in which our interests intersect in 
enforcement. So I'm not sure what it would mean in terms of 
piercing sanctuary laws. You know, we look at each 
jurisdiction, we exercise our authorities, and we always seek 
to work with our partners.
    In terms of the Minutemen, I believe you're speaking about 
on the Arizona border, the Department of Homeland Security has 
come out very strongly against any vigilantism. It's 
distracting resources on the border for us to have to watch the 
watcher, so to speak. Very fortunate and very grateful that 
there have been no violent incidents on the border, but----
    Ms. Jackson Lee. Grateful is the word.
    Mr. Garcia. But the situation is being monitored very 
carefully primarily by Customs and Border Protection with the 
Border Patrol and other assets down at the border. And again, 
as you point out, borne of frustration as well, but we're 
keeping a careful eye on that.
    Ms. Jackson Lee. On those sanctuary laws--just as a final 
point, on these sanctuary laws, you are still doing the Federal 
task of enforcing immigration laws. I think the point that I 
was making is that we write legislation to eliminate or to 
pierce an individual State's determination about how they want 
to not be engaged in that. You know, we are pressing upon State 
jurisdictions by any Federal law the responsibility of the 
Federal Government. That's just my point.
    Mr. Garcia. You're saying it's odd to have a Federal law 
that a State law says we're not going to enforce or allow 
anyone to enforce the law. So as again, I said, I think the 
sanctuary laws are a very bad message. I think luckily we've 
been able to forge relationships in most jurisdictions.
    Mr. Hostettler. I thank the gentlelady.
    The Chair now recognizes the gentleman from Virginia, Mr. 
Goodlatte, for 5 minutes.
    Mr. Goodlatte. Mr. Chairman, thank you very much.
    Ms. Garst, you noted in your testimony that the number of 
victims of gang violence, a number of them have been reluctant 
to come forward because of their illegal status, and I wonder 
if you might comment on that and tell us what you think the 
United States could do to help make that easier for you to get 
the cooperation of illegal aliens?
    Ms. Garst. One of the heartbreaking situations that we face 
in prosecution are very violent cases like the case of the 
young girl whose brother was a Sureno-13 member and was stabbed 
by MS-13. Not only did she not receive medical care because her 
family would not take her to the hospital for fear of police 
intervention, but it was only when a teacher and a guidance 
counselor saw her openly having the wounds, that we even got to 
hear about the case. They would not let her speak to the police 
about the case in any detail. They would not permit testimony 
and actually refused any cooperation whatsoever because not 
just the legal status but also gang ties.
    One of the issues that we discussed and Sergeant Rush and I 
have discussed, we even had a homicide regarding many illegal 
witnesses that would not come forward and the result was an 
acquittal. And the sad situation in that case was certainly had 
we been able to send a message that our local ICE agents have 
told us that, look, if you're a victim of crime, we're not 
targeting you for deportation.
    There has to be a public awareness or education campaign 
that we can get into the community and let people know, and 
we've started doing on a smaller scale, as you're aware, at the 
local poultry industry and also at schools, and as you 
participated in our gang forum at our local high school, is to 
educate the community that, yes, what Congresswoman Lee is 
talking about, intervention through Boys and Girls Club is 
there, and that also prosecution is there to help you when 
you're a victim. When you're a victim of the home invasion when 
a gang member comes in and holds you at gunpoint and takes your 
jewelry or demands money, we will be there to help you. If 
there is a way that ICE can help us, perhaps, I don't know, 
through pamphlets in a bilingual way, to help people know that 
the criminal justice system will be there for when they're 
victims as well.
    We have been seeing some limited success in cases, where 
people of illegal status have come forward in a recent case, as 
I had told you and Senator Warner, but it's been a great 
struggle.
    Mr. Goodlatte. Have you been able to work with the 
immigration authorities? Have you talked to them about this 
concern and have they offered any----
    Ms. Garst. We have, and they have told us that their focus 
is not on victims of crime, that they are not focusing on 
illegal victims of crime. But I will be very earnest with you, 
Congressman, there is a distrust somewhat of ICE certainly 
within the community, so it will be very important for us to 
continue to forge the relationship that we need to to help the 
illegal alien. But what's important is the gang members know 
this and they are picking people that are illegal to prey on 
them, to go into their homes, because just in the case of the 
stabbing and the home invasion that we spoke about regarding 
them going into the home, the MS-13 members, they know these 
people will, one, either not report, or two, not testify. So 
they're home free.
    Mr. Goodlatte. Let me ask you. In your testimony you've 
mentioned--I found this very interesting--that gangs, rival 
gangs were attempting to recruit children as young as second 
graders. Why are gangs interested in people that young?
    Ms. Garst. That is the greatest fear that we have in our 
community. I'm working very closely, I'm on the Board of 
Directors of the Boys and Girls Club, and a lot of this 
information has been verified through teachers in the school 
system. What happens is, as Ms. Fernandez spoke about, many of 
these people are working two and three jobs, and the children 
are relying on community members to help in the evenings and 
other things or programs. What these gang members are doing in 
our community--and I can only speak on our community, and again 
I think it is different in other places--are coming in and 
selecting children at an early age to be the banner carriers, 
to tell other people about the gang, to pledge their loyalty 
early.
    They're actually even--we have instances of children within 
elementary schools actually beating up other students who had 
family members or themselves were showing other gang signs. 
What they're doing is they're recruiting at an early age to set 
the stage for other criminal activity, and it's not so much 
that these children are criminal gang members yet, they're 
being primed for that. They're being taught the gang system. 
They're being taught the gang loyalties. And what we're seeing 
locally is that they're sending these kids to do the 
vandalisms, to do the break-ins because they know that the 
juvenile system will not be as tough on these children, and 
therefore the gang will be much better off because they 
continue to perpetuate their profit motive.
    Mr. Goodlatte. Thank you. I believe my time has expired.
    Thank you, Mr. Chairman.
    Mr. Hostettler. Thank the gentleman.
    The Chair now recognizes the gentlelady from California, 
Ms. Waters, for 5 minutes.
    Ms. Waters. Thank you very much, Mr. Chairman, and Members. 
For this session of Congress I asked to serve on this Committee 
because I come from Los Angeles, a city, a district and an area 
where we have a growing number of immigrants. We have legal 
immigrants and we have illegal immigrants. We have a very, very 
complicated problem in the greater Los Angeles area, and in 
some communities it's about to explode.
    In the South Los Angeles area it is about to be a 
confrontation between black and Mexican gangs. The Mexican 
gangs are directed from inside the prisons. I've heard nobody 
talk about the influence of the Mexican mafia or the prisons on 
what is going on on the street. The territories that are being 
fought over are being decided by the leaders inside the 
prisons. And as many of the Mexican gangs advance into the 
black neighborhoods to take over these territories, they are 
simply killing each other. They just--now it's not even who are 
you and where are you from? They're just walking up and 
shooting dead in the head, Mexicans shooting blacks and blacks 
shooting Mexicans. And I'm told, just as a few days ago, by 
folks on the street that it is about to get really bad because 
the black gangs, the Bloods and the CRIPS are about to combine 
to face off with the Mexican gangs that are being directed from 
inside the prisons.
    So as I sit here and I listen to all of this, I just 
can't--I just wonder if we really understand what is going on 
and how bad it is. I mean it is, it is bad. And while we talk 
about--we try to talk about it in ways that certainly will 
protect people's rights, that will not simply just drag young 
people into a broad net, as it is being referred to. We got to 
do something, we got to do something.
    I am very angry at the Administration for not protecting 
the border. I'm very angry that the President of the United 
States, who promised 2,000 more border guards, came up with 200 
in the budget. I just think this business about whether or not 
we're protecting the border cannot be played with politically. 
You know, this Administration, or given that it is the 
Administration, I wouldn't care whether it was a Democrat or 
Republican administration, we're going to have to do something 
to protect the border.
    And let me tell you what's wrong with the gang members from 
across the border who are causing problems. They're 
apprehended, and if they're not apprehended if they commit a 
crime, they're crossing back and forth across the border. They 
leave and they come back because we don't have any protection 
on the border.
    I would hope that everybody would be frightened enough, I 
mean absolutely frightened enough about what is going on and 
how it is spiraling out of control, that some very decisive 
action is taken which will include some harsh measures. Again, 
you know, like I said earlier, you don't get any more liberal 
than I am. I mean I'm a liberal with a big L, okay? And I 
proudly say it. And my life has been about protecting people's 
rights, about making sure that we have a criminal justice 
system that just doesn't incarcerate innocent people. I don't 
want innocent people incorporated, but we've got gang bangers, 
black, white, and I want to tell you we had Jamaican gangs, 
some of the worst. I mean drug dealing killers. I want them off 
the street. I don't care where they come from. I don't care if 
they're black, green, purple, white, I want them off the 
street. I'm sick and tired or what is going on in Los Angeles 
in my community. I'm sick and tired of law enforcement not 
being able to make sense out of this. I'm sick and tired of 
people who commit crimes over and over again, and the gangs 
that are walking up shooting people in the head remaining on 
the street.
    Now, I guess we can pontificate and we can sit in these 
Committees all day long, but unless Democrats and Republicans 
alike are willing to join hands, say to this Administration, we 
want the resources on the border, we want the border protected, 
we want to go after the gang dealers. They call them shot 
callers, the shot callers. Everybody knows who they are. 
They're making the decisions. I want to know why don't we have 
the information from the prisons to know who's sending their 
orders out on the streets. I never hear that talked about. It's 
time to get serious about this business. It is time to get very 
serious about the business.
    And that's all I have to say. I'm not trying to relate to 
this flimflam. That's all I have to say.
    Mr. Hostettler. Thank the gentlelady.
    The Chair now recognizes the gentleman from California for 
5 minutes, Mr. Lungren.
    Mr. Lungren. Thank you, Mr. Chairman.
    Many of us have been involved in this effort on trying to 
deal with gangs for a long time, and Ms. Fernandez's suggestion 
that it needs to be an all-encompassing approach is absolutely 
true. I had a gang prevention task force where we brought 
people from all disciplines together to try and figure out what 
it was, and we came up, as many people have, with tougher 
penalties, but we also came up with an effort to give young 
people who would otherwise be attracted to gangs alternatives. 
I mean I read these analyses of what gangs are all about and 
from the National Alliance of Gang Investigators Association. 
There seems to be a consistency or consensus on the fact that 
in many cases, gangs take the place of other authority figures, 
particularly family and adults. These kids sometimes get into 
these gangs because they're looking for that which they won't 
find anywhere else--discipline in a very strange way, 
reinforcement in a very strange way. And we have been trying to 
deal with that.
    That is primarily a local and State responsibility. There's 
no doubt about it. We have more cops on the local and State 
level than we'll ever have on the Federal level.
    But to exacerbate that problem with illegal alien gang 
members is obviously to make it just far far worse, and it is a 
question that I've often thought of. We spend so much time 
setting up cops programs where we try and take credit for 
getting police officers on the street; and then we don't fund 
our border patrol, and we don't do internal enforcement.
    So, Mr. Garcia, I would like to ask you if you could give 
me an idea why we haven't enforced employer sanctions? I was 
the Republican floor manager of the Simpson-Mazzoli bill in 
1987. We thought that employer sanctions would be half of the 
balance that they would allow us to have that hook into the 
attraction, or the magnet, that draws most people here. Most 
people don't come here for welfare benefits. They come here to 
find a job--jobs that Americans have not or will not take.
    So we thought employer sanctions would be a way of doing 
it. And yet--I'm not trying to find fault with this 
Administration because it's been Democrat and Republican 
administrations, Democrat and Republican Congresses that 
haven't done it, but I just wonder, from your standpoint as a 
former prosecutor and your standpoint as the Assistant 
Secretary of Immigration and Customs Enforcement, whether you 
can give me some insight into that?
    Mr. Garcia. Thank you, Congressman. I'll try. Certainly we 
do employer sanctions, and certainly it's a problem, and you're 
absolutely right in the expression of your frustration and also 
in the expression of it as the magnet or an attraction for 
people coming into the United States. And certainly it's 
somewhat a resource issue, as you point out. We have to use our 
resources as effectively as possible, whether it's public 
safety and gangs and predators or whether it's employer 
sanctions. So what do we do? We go after a number of employers 
on different levels, either large employers where we'll have 
the greatest impact, and there are a number of cases recently 
lumped under the Wal-Mart heading which actually involved Wal-
Mart in a civil settlement and contractors for Wal-Mart in a 
criminal settlement with the Government, as a case leading to a 
program that will hopefully get people to voluntarily comply 
with the employment regulations.
    We look at critical industries. There's been a number of 
cases recently that have gotten attention by ICE under the 
umbrella of Operation Tarmac. So you're looking at not only 
airports and people with access badges who are employed by 
those airports, but military facilities, defense contractors, 
ports where people, illegal aliens without documentation are 
again getting access to very sensitive facilities, and that has 
become a priority. We're looking at abusive employers, people 
who hold their illegal employees, illegal alien employees in 
conditions that would be equivalent to bondage or slavery, so 
we prioritize our efforts in that area.
    So if you're looking at resources and the greatest effect 
that you can get from the resources you have in any given 
program, whether that's drug enforcement or employee sanctions 
enforcement, that's where we have our resources. Under the 
President's '06 budget--and I don't have the figure, I 
apologize, offhand here--but there is a requested enhancement 
before this Congress for increased funding for employer 
sanction investigations, which I think is very important, and 
hopefully by combining those additional resources as requested 
with our prioritization and again some compliance programs, we 
can have a greater impact than we have had.
    Mr. Lungren. Thank you. Could you tell me how many arrests 
were made last year on employer sanctions?
    Mr. Garcia. I'm sorry. I don't know the number.
    Mr. Lungren. Would you--could you give me an idea? Would it 
be more than 1,000?
    Mr. Garcia. Honestly, Congressman, I don't want to guess, 
but I can certainly have our staff give your staff the number.
    Mr. Lungren. Right. I mean I understand you are doing 
things, but in terms of what we anticipated would be the case 
when we passed the bill in 1987, we're not doing anything. I'm 
not directing that at you. I'm directing that at all of us. I 
happen to believe in the President's idea that we ought to have 
a guest worker program because I think once we have a real 
workable guest worker program, we, the United States determines 
who comes here and under what circumstances and what jobs. Then 
we would actually have no excuse for not enforcing employer 
sanctions, and I think you'll get the kind of support for that 
which is necessary.
    Back in '87, we were talking about it being largely a 
California problem or a Southwest problem. Illegal immigration 
is a problem all over the United States. Gangs now you're 
experiencing in the Shenandoah Valley. And I don't wish that on 
anybody. But if you look at the numbers you have versus the 
numbers we've been experiencing in other parts of the country 
for some time, I hope that's not my way of saying ``you ain't 
seen nothing yet.'' I hope it's my way of saying we've had some 
real problems. Maybe we can get support from other parts of the 
country for the problem that we've got, in terms of funding 
that is necessary. It's a multi-faceted problem that needs a 
multi-faceted approach. But part of that, it seems to me, is to 
try and get rid of this exacerbating problem, which is illegal 
alien gang members. We have enough problems with home-grown 
gang members. We don't need to add to it, and that is a true 
Federal responsibility.
    Thank you very much, Mr. Chairman.
    Mr. Hostettler. I thank the gentleman.
    The question period now over, I want to thank the members 
of the panel for your input----
    Ms. Jackson Lee. Mr. Chairman?
    Mr. Hostettler. Yes? I recognize the gentlelady from----
    Ms. Jackson Lee. Would you please? Just if they can answer 
this yes or no, I ask the Chairman to indulge me 1 minute, ask 
unanimous consent for 1 minute.
    Mr. Garcia, in the MS-13, have you in the course of--I'm 
not sure if there's any firsthand knowledge, but any of the MS-
13 engage in any terrorist activity?
    Mr. Garcia. Congresswoman, great question. We have seen 
reporting, I think some Boston reporting linking MS-13 and al 
Qaeda specifically. I have not seen that. I will tell you 
though that any organized criminal enterprise that's exploiting 
our border, as MS-13 is, to bring in contraband, to bring in 
illegal aliens, certainly is a national security risk, profit-
driven, for the right amount of money could bring in 
terrorists, could bring in components of weapons of mass 
destruction. We have to accept that risk and address it. But I 
have not seen a specific link between that gang or other gangs 
and terrorist organizations.
    Ms. Jackson Lee. And you're aware that the MS-13, in 
addition to the hardened criminals that exist, recruits at the 
level of 13-, 14-, 15-year-olds?
    Mr. Garcia. I'm not an expert on their recruitment. I would 
accept that representation from people who are familiar with 
gangs, but I'm not familiar with what age limit they begin 
targeting recruits.
    Ms. Jackson Lee. Ms. Fernandez, just quickly, what would 
you do with legislation----
    Mr. Hostettler. If the gentlelady will yield, we're really 
not going to be able to do a second round of questioning.
    Ms. Jackson Lee. Let me have her do that in writing then.
    Mr. Hostettler. Yes, please.
    Ms. Jackson Lee. Would you please respond to potential 
legislation that would add a deportation provision to anyone 
who is a member of a gang, that if they were here, that their 
membership would equate to an automatic deportation?
    Mr. Hostettler. I want to thank the panel, the witnesses 
for your presence here today and your very valuable 
contribution to this discussion.
    Ms. Jackson Lee. And I've got a submission. Ask----
    Mr. Hostettler. Unanimous consent?
    Ms. Jackson Lee. Yeah, ask unanimous consent to put in the 
letter from the City of Houston dated April 14, Anti-Gang Task 
Force.
    Mr. Hostettler. Without objection.
    Mr. Hostettler. The business before the Subcommittee being 
complete, we are adjourned.
    [Whereupon, at 6:23 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

         Prepared Statement of Congresswoman Sheila Jackson Lee

    The subject of this hearing is, ``Immigration and the Alien Gang 
Epidemic: Problems and Solutions.'' According to the Department of 
Justice, we currently have more than 25,000 gangs in the United States. 
The most recent National Youth Gang Survey indicates that there are 
more than 750,000 gang members. Some of these gangs resemble organized 
crime syndicates. They commit gun violence, gun trafficking, drug 
trafficking, and other serious crimes.
    The gang we will hear the most about at this hearing is the Mara 
Salvatrucha, or MS-13 organization. Composed mainly of Salvadorans and 
other Central Americans, this gang has an estimated 8,000 to 10,000 
members in the United States. MS-13 was established in Los Angeles in 
the 1980s by Salvadorans fleeing from a civil war. When they came to 
Los Angeles, Mexican gangs preyed on them. Their response was to band 
together in a mara, or posse, composed of salvatruchas, which means 
street-tough Salvadorans.
    According to the Bureau of Immigration and Customs Enforcement 
(ICE), the need to respond to the proliferation of MS-13 gangs has 
become a public safety priority. In January of 2005, ICE launched 
Operation Community Shield. The goal of this operation is to dismantle 
the MS-13 organization by targeting its members, financial assets, and 
operations. To do this, ICE will bring to bear all of its law 
enforcement and investigative powers, including criminal prosecutions, 
immigration authorities, financial investigations, and asset seizures.
    ICE will work with partners in the federal law enforcement 
community, including U.S. Attorneys' offices; the FBI; the Drug 
Enforcement Administration (DEA); and the Bureau of Alcohol, Tobacco, 
Firearms and Explosives (ATF). ICE also will work with foreign 
governments to identify known gang members. ICE agents have arrested 
more than 135 MS-13 gang members nationwide.
    The gang problem is being addressed at the local level too. In 
1997, the Fairfax police department made youth gang crime a priority 
and established a gang investigations unit. In 2003, funding from the 
U.S. Congress enabled the creation of the Northern Virginia Gang Task 
Force. The Task Force works closely with the FBI, ATF, and ICE.
    It is important to emphasize that Northern Virginia does not limit 
its efforts to law enforcement activities. The Task Force also does 
public education and awareness presentations; provides gang activity 
awareness training to school resource officers and Fairfax County 
public school personnel; and has established diversion programs such as 
GREAT (Gang Resistance Education and Training) and youth mentoring 
programs.
    I am pleased to say that we have a good gang intervention program 
in Houston too. In response to the rise in gang-related crime in the 
early 1990's, Houston's mayor established an Anti-Gang Office and Gang 
Task Force. The office's mission is to develop a comprehensive 
mechanism to reduce gang-related violence and crime. To meet this goal, 
the Anti-Gang Office and Gang Task Force has established prevention, 
intervention, and suppression program partnerships with law 
enforcement, criminal justice agencies, schools, youth service 
providers, and the public. It coordinates citywide anti-gang efforts, 
including the gathering and sharing of information on gang intervention 
and prevention activities related to gang violence.
    Our witness today is Mai Fernandez, the Chief Operating Officer of 
the Latin American Youth Center (LAYC). The LAYC family of 
organizations includes two youth centers in Washington, D.C. and one 
about to open in Langley Park, Maryland; three public charter schools; 
an Art & Media House; transitional housing; and two social 
enterprises--all with a shared commitment to helping youth become 
successful and happy young adults who have the skills they need to 
succeed educationally, professionally, and personally. These services 
assist youth in breaking the cycle of crime and violence in their 
lives.
    Thank you.

                              ----------                              

LETTER FROM THE LATIN AMERICAN YOUTH CENTER SUBMITTTED BY THE HONORABLE 
                           SHEILA JACKSON LEE


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

   LETTER FROM THE CITY OF HOUSTON SUBMITTED BY THE HONORABLE SHEILA 
                              JACKSON LEE


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
